f

t.

No.

In the Supreme Court of the United States
MARK ANTHONY JENKINS,
Petitioner,
v.

TIMOTHY O’ROURKE, Jefferson Parish Assistant District
Attorney, Jefferson Parish Juvenile Court, et al.

APPENDIX

r
A. Judgments on Review
Appendix A1_United States Court of Appeal for the Fifth Circuit,
Opinion of Jan. 10, 2020............................................................................

l-3a

Appendix A2_ U. S. District Court for the Eastern District
of Louisiana, Order & Reasons, Nov. 27, 2018........................................

4-16a

B. State Court Judgments
Appendix B1_Jefferson Parish Juvenile Court,
Minutes of July 7, 2014, sealed in supplemental appendix...................

17sa

Appendix B2_Jefferson Parish Juvenile Court,
Minutes of the September 15, 2014, sealed in supplemental appendix

18sa

Appendix B3_24th Judicial District Court, State of
Louisiana, Judgment of February 4, 2015.............................................

19-20a

Appendix B4_Jefferson Parish Juvenile Court,
Minutes of April 27, 2015, sealed in supplemental appendix.............

21sa

Appendix B5_Louisiana Fifth Circuit, Order of May 26, 2015.....................

22-23a

Appendix B6_Jefferson Parish Juvenile Court,
Louisiana, Minutes of June 15, 2015, sealed in supplemental appendix...24sa
Appendix B7_Louisiana Fifth Circuit, Disposition, July 31, 2015....

25-30a

Appendix B8_24th Judicial District Court, Louisiana
Judgment, February 1, 2016............. ..........................................

31a

Appendix B9_ 24th Judicial District Court for the State of Louisiana
Judgment of May 24, 2016............... ............................................

32a

Appendix B10_Louisiana Fifth Circuit, Order, Nov. 1, 2016.............

33-34a

1

11

Appendix Bll_24th Judicial District Court, State of Louisiana,
Amended Judgment, Nov. 7, 2016...........................................

35a

C. Orders Denying Rehearing
Appendix Cl_ U. S. Court of Appeals for the Fifth Circuit denied
en banc rehearing. February 21, 2020....................................

36-37a

Appendix C2_ U. S. District Court for the Eastern District of
Louisiana, January 15, 2019, denied new trial.....................

38-40a

Appendix C3_Louisiana Fifth Circuit, rehearing denied
September 2, 2015..................................................................

41a

Appendix C4_Louisiana Supreme Court, writ of certiorari
denied w. Dissent on September 4, 2015

>>>>>>>>>>>>>

Appendix C5_ Louisiana Fifth Circuit, rehearing denied March 2, 2017

42-43a
44a

Appendix C6_Louisiana Supreme Court, writ of certiorari
denied w. J. Hughes “would grant” September 6, 2017...................
D. Mandate

45a
46-47a

E. Pleadings That Raised the Issue
Appendix El_excerpts from Application for Rehearing, Aug.14, 2015

48-49a

Appendix E2_excerpts from Application for Writ of Certiorari,
August 28, 2015................................................................................

50-53a

Appendix E3_ excerpts from Petition to Nullify, March 10, 2016........

54a

Appendix E4_Request for Reconsideration March 9, 2017...................

55-56a

Appendix E5_Application for Writ of Certiorari, April 20, 2017..........

57-60a

F. Other Essential Material
\*

Ill

Appendix FI_excerpt from Memo of July 9, 2012.......................................

61a

Appendix F2_Jenkins’ Rule to Show Cause, Oct. 17, 2014.......................

ff2-65a

Appendix F3_Excerpt from Exception of Prescription, Nov. 20, 2014......

66a

Appendix F4_Motion to Amend and excerpt from Third
Amendment to petition in 24th Judicial District Court...................

67-70a

Appendix F5_excerpts of transcript of June 15, 2015
hearing in Juvenile Court, sealed in supplemental appendix.......

71-73sa

Appendix F6_ Excerpt from Jackson’s Application for Supervisory Writ,
June 23, 2015.......................................................................................

74-75a

Appendix F7_ Jenkins’ Brief in Opposition to Writ
Application, June 30, 2015 (excerpt)..................................................

76-77a

Appendix F8_excerpt from transcript of May 16, 2016 district court hearing
on exceptions to petition to nullify the 2015 ruling on legal paternity...78-81a
Appendix F9_Fourteenth Amendment....

82a

42 U.S.C.: sec. 1983

82-83a

La. C.C. Art. 203

84a

«••
I »>

Case: 19-30112

Document: 00515267653

Page: 1

Date Filed: 01/10/2020
/

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

v..

United States Court of Appeals
Fifth Circuit

FILED
No. 19-30112

January 10, 2020
Lyle W. Cayce
Clerk

MARK ANTHONY JENKINS,
Plaintiff - Appellant
v.
TIMOTHY O'ROURKE Jefferson Parish A^istejjt^Distiirt Atto y,
Jefferson Parish Juvenile Court; ROBERT M^MUKFHY Jvoi
s
the Louisiana Fifth Circuit Court of Appeal; KRISTYL TREADAWAY,
BARRON BURMASTER, Judge,
Defendants'- Appellees
V-

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:18-CV-3122

Before DENNIS, GRAVES, and WILLETT, Circuit Judges.
PER CURIAM:*
Appellant Mark Anthony Jenkins brought suit in Louisiana state court
in 2012 contesting his paternity of Mark Anthony Jenkins, Jr. and seeking,
inter alia, nullification of an earlierchild support judgment and removal of his

^^jaasffsssssgsssssssxs: I
Clll. R- 47.5.4.

Case: 19-30112

r\

Document: 00515267653

Page: 2

Date Filed: 01/10/2020

No. 19-30112

jk\

name from Mark Anthony Jenkins, Jr.’s birth certificate.1 Jenkins v. Jackson,
216 So. 3d 1082, 1084-86 (La. Ct. App. 2017). In July 2015, the Louisiana
appellate court found that Appellant had judicially confessed that “he signed
both the birth certificate and an acknowledgement of paternity at the time of
[Mark Anthony Jenkins, Jr.’s] birth in 1997,” such that Appellant’s “cause of
action to revoke his acknowledgement of legal paternity has prescribed.” In a
later appeal, the state appellate court reaffirmed this ruling, and noted it had
jurisdiction to issue the earlier ruling pursuant to its supervisory jurisdiction
over district courts within its circuit. Jenkins, 216 So. 3d at 1090 (“Because
the 24th Judicial District Court is a district court within our circuit, this Court
had the supervisory jurisdiction to render determinations relevant to Mr.
Jenkins’ petition, which included the legal and biological paternity of [Mark
Anthony Jenkins, Jr.]”); LA. CONST. ART. V, § 10 (“[A] court of appeal .... has
supervisory jurisdiction over cases which arise within its circuit.”).
Appellant' Then filed this federal lawsuit against an assistant district
attorney involved in the underlying litigation, a judge on the state appellate
court, his ex-wife’s attorney, and the state district court judge, arguing the
state appellate court lacked s-dbiedt-matter jurisdiction to .determine his.le.gal
paternity and seeking relief under 42 U.S.C. §§ 1983, 1985, 1986, and 1988.
The district court dismissed Appellant’s action under Federal Rule of Civil
Procedure 12(b)(1), holding that it lacked jurisdiction under the RookerFeldman doctrine because (1) Appellant “lost in the state court,” (2) he “alleges
injuries caused by that judgment,” (3) that judgment “was rendered before
[Appellant] filed this action,” and (4) Appellant “specifically asks this [c]ourt to
reverse that judgment.” See Exxon Mobil Corp. u. Saudi Basic Indus. Corp.,

1 Mark Anthony Jenkins, Jr., was horn September 18, 1997. Jenkins v. Jackson, 216
So. 3d 1082, 1084 (La. Ct. App. 2017).
&

2

!

v\

Case: 19-30112

Document: 00515267653

Page: 3

Date Filed: 01/10/2020

No. 19-30112
'544 U.S. 280, 284 (2005) (The Hooker-Feldman doctrine applies to “cases
brought by state-court losers complaining of injuries caused by state-couit
judgments rendered before the district court proceedings commenced and
inviting district court review and rejection of those judgments. ). Th& district
court further determined that the state appellate court had jurisdiction to
' determine Appellant’s legal paternity,
After careful review of the record in this case, full consideration of the
parties’ briefs, and the district court’s thorough order and reasons, we affirm
the district court’s judgment for essentially the reasons stated by that court.
AFFIRMED.

r>

n
3

3

Case 2:18-cv-03122-BWA-JVM

n

*

Document 58 Wed

*'W

1 Ul j—'

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

AS-

CIVIL ACTION

MARK ANTHONY JENKINS

NO. 18-3122
VERSUS
SECTION: MO)

ROBERT M. MURPHY, el al.

ORDER & REASONS
filed by defendant Barron Burmasler
Before the Court is a Motion to Dismiss
la intiff Mark Anthony Jenkins (“Jenkins”) responds in opposition.
(“Bunnaster"),1 to which p
Dismiss filed by defendant Kristyl
and in support of which Burmasler replies;2 a Motion to
4 to which Jenkins responds in opposition.5 and m support of which
Trcadaway (“Treadaway ”),
Trcadaway replies;" a Motion to Dismiss filed by defendant Robert M Murphy (“Murphy-).- to

rr

which Jenkins responds m opposirion.8 and in support of which Murphy rcpl.es." and in further
which Jenkins has filed a sur-repiy;'” and a Motion to Dismiss filed by dclendam
opposition to
Timothy O’Rourke rO'Rourke"),1' to which Jenkins responds m opposition.11 and in support of
which O'Rourke replies.'3 Having considered the parties' memoranda and .he applicable law.
the Court issues this Order & Reasons.

rr

1 R. Doc. 15.
J R. Doc. 25.
* R. Doc. 34.
4R. Doc. 19.
* R. Doc. 26.
4 R, Doc. 36.
’R. Doe. 23.
* R. Doc. 37.
4 R. Doc. 41.
10 R. Doc. 47.
" R Doc 24.
” R. Doc. 39.
13 R. Doc. 51.

9
. .A

--^-wox^-bwa-JVM Document 58

I.

Filed 11/27/18 Page 2 of 13

background
This action is a collateral attack

on a state court judgment.

The pertinent facts and

procedural history of this case were recited by the Louisiana court of appeal fo

r the fifth circuit

m an appeal stemming from the underlying state-court litigation:
Mark Anthony Jenkins, Sr. and Latasha Jackson began their relationship while
Ms. Jackson was in high school. During the time of their sexual invol vement, Ms.
Jackson became pregnant. On September 18, 1997, Mark Anthony Jenkins, Jr.
(hereinafter referred to as Mark, Jr. ’) was bom to Latasha Jackson. According to
Mr. Jenkins, he signed an acknowledgement of paternity establishing filiation to
Mark, Jr., and the acknowledgement was filed by November 1997.1 The
following year, on May 31, 1998, Mr. Jenkins and Ms. Jackson were married. At
some point, the parties separated, and Ms. Jackson obtained a judgment of child
support against Mr. Jenkins on October 27, 2003. Mr. Jenkins and Ms. Jackson
were divorced on April 13, 2004.
On February 15, 2012, Mr. Jenkins filed a “Petition for Revocation of
Acknowledgement of Paternity, for Damages Due to Fraud under C.C. art. 2315,
and for Restoration of Payments Not Due under C.C. art. 2299” in the 24,h
Judicial District Court. In his petition, Mr. Jenkins alleged that Ms. Jackson
fraudulently concealed the truth about the paternity of Mark, Jr. and obtained
child support while knowing that another man, Samuel Scott, was the biological
father. He also alleged that be mistakenly signed the acknowledgement of
paternity for Mark, Jr.
In addition, Mr. Jenkins sought to have his
acknowledgement of paternity revoked, monetary damages from Ms. Jackson, and
a court order for a paternity test for himsel f and Mark, Jr.
In opposition to the petition for revocation, Ms. Jackson filed an “Exception of
Prescription and/or No Cause/Right of Action.” In her exception, Ms. Jackson
argued that Mr. Jenkins’ right to revoke the formal act of acknowledgement was
perempted because he failed to disavow Mark, Jr. within 180 days of the
marriage; thus, he had neither a right of action nor cause of action to revoke the
acknowledgement. The matter was heard by a domestic commissioner. In a
judgment rendered on July 5, 2012, the domestic commissioner sustained the
exception of prescription but overruled the exceptions of no cause of action and
no right of action. Mr. Jenkins filed a “Motion for New Trial,” which was heard
on September 13, 2012. A new trial was granted, and the matter was set for
arguments.2 On October 15, 2012, the domestic commissioner rendered a
judgment in favor of Mr. Jenkins, which overruled Ms. Jackson[’sj exception of
prescription. Ms. Jackson objected to the domestic commissioner’s ruling.
The matter was heard by the trial court on January 16, 2013. In a judgment
rendered on January 22, 2013, the trial court overruled Ms. Jackson’s exception of
2

^

Case 2:18-CV-0312 2-BWA-J VM Document 58 Filed 11/27/18 Page 3 of 13

r\

ftp

prescription. The trial court also ordered genetic testing and assigned costs for the
test. Ms. Jackson sought supervisory review of the trial court’s judgment.

In Jenkins v. Jackson, 13-296 (La. App. 5 Cir. 5/14/13) (unpublished writ
disposition), writ not considered, 13-1835 (La. 8/22/13); 122 So.3d 1009, this
Court granted Ms. Jackson’s writ application in part, reversing the trial court's
ruling on the exception of prescription and rendering a ruling that sustained the
exception. Citing J.P. v. C.E., 12-20 (La. App. 3 Cir. 5/2/12); 94 So.3d 107. this
Court found that the two-year prescriptive period in La. R.S. 9:406 should apply
prospectively from its effective date, which was August 15, 2008. Because Mr.
Jenkins did not file his petition to revoke until February 15. 2012, which was well
over the two years from the effective date, Mr. Jenkins’ action to revoke his
acknowledgement of paternity was prescribed. This Court also vacated the order
for genetic testing and remanded the matter to the trial court for determination of
whether Mr. Jenkins was entitled to the genetic testing pursuant to applicable law,
specifically La. R.S. 9:396. Upon remand, Mr. Jenkins filed a “Motion for Court
to Rule on Petitioner's Previous Motion for Genetic Testing under R S. 9:396."
The trial court granted the motion and ordered that Mr. Jenkins. Ms. Jackson and
Mark, Jr. submit to the genetic testing.
On September 11, 2013, Mr. Jenkins filed a “Motion to Amend Petition to Annul
Judgment of Juvenile Court."1 In that motion. Mr. Jenkins alleged that he filed a
petition to nullify child support in the juvenile court; however, he was informed
by the court that the nullification had to take place in the district court. Mr.
Jenkins sought to amend his original petition filed, which was filed in the trial
court, to include a request for damages for mental anguish and nul li fication of the
judgment of child support rendered in the juvenile court. The motion was heard
by the trial court and granted on November 25, 2013.
Mr. Jenkins subsequently filed a “Petition for Nullification of the Judgment of the
Fifth Circuit which Reversed a Judgment of This Court" on June 25, 2014. In that
petition, Mr. Jenkins sought to annul the portion of the May 14, 2013 writ
disposition of this Court that found his right to revoke the acknowledgement
prescribed. He alleged that his acknowledgement of paternity was signed at the
hospital after Mark, Jr. was bom, but the only copy of the acknowledgement was
destroyed during Hurricane Katrina, while in the possession of the State.! Mr.
Jenkins sought to have the judgment of this Court annulled on the basis that it did
not consider whether the form of the acknowledgement was by authentic act.

r>

On October 14, 2014, Mr. Jenkins filed a “Rule to Show Cause Why Plaintiffs
Name Should Not Be Removed from the Birth Certificate and Why An Expert
Should Not be Appointed to Calculate Probability of Paternity.” In that pleading,
Mr. Jenkins requested that, since the genetic testing ordered by the court showed
that he cannot be Mark, Jr.'s biological father, the testing be admitted into
evidence, the signing of the birth certificate be given no legal effect, and his name
be removed from the birth certificate. Mr. Jenkins,also requested that an expert

^

3
N

uase z:ia-cv-U3iz^BWA-JVM Document 58 Filed 11/27/18 Page 4 of 13

n

be allowed to use Samuel Scott’s DNA report6 to calculate the probability of
paternity, and Ms, Jackson be cast with the costs of the genetic testing.
In opposition to Mr. Jenkins’ petition to revoke acknowledgement and rule to
show cause. Ms. Jackson filed an “Exception of Prescription,” arguing that Mr.
Jenkins’ cause of action was prescribed under the ten-year libera live prescriptive
period. She also argued that fraud was not a procedural avenue that could be used
to vitiate the birth certificate; specifically, Mr. Jenkins could have ascertained the
truth regarding his paternity of Mark. Jr. prior to signing the birth certificate.
A hearing on Mr. Jenkins’ rule to show cause was held on January 21, 2015. In a
judgment rendered on February 4, 2015, the trial court denied the rule and made a
handwritten notation that “no authority [was] provided by mover to show this
court that this is the proper procedure to alter or amend birth certificates. Dept, of
Vital Records is not a party.” In a separate judgment rendered on the same date,
the trial court overruled Ms. Jackson’s exception of prescription, admitted the
genetic testing into evidence, found that Mr. Jenkins is not the father of Mark, Jr.,
and ordered Ms. Jackson to reimburse Mr. Jenkins for the total costs incurred for
the testing, which included attorney’s fees and court costs. The trial court also
ordered a rule to show cause hearing to show why the birth certificate should not
be altered and why DCFS should not authorize the calculation of Mr, Scott’s
probability of paternity for Mark, Jr.
Ms. Jackson filed a “Motion and Order for Appeal” on February 24, 201(5].
seeking appellate review of the trial court ’s rulings that overruled her exception of
prescription and ordered her to pay the costs incurred to prove paternity. The
motion was granted by the trial court, and an appeal was lodged. This Court
dismissed Ms. Jackson’s appeal through an order on May 26, 2015, finding that
the trial court’s February 4th judgments were not final judgments. Ms. Jackson
was allowed 30 days to file an appropriate writ, applicat ion seeking review of the
interlocutory rulings.
After tiie trial court rendered its February 4th judgments, Mr. Jenkins filed a
“Petition for Alternation of a Birth Certificate to Remove Petitioner’s Name as
Father of the Child, Void His Signature, and Change the Surname of the Child”
on February 9, 201 [5]. Subsequently, he filed a “Motion to Amend Petition a
Third Time.” In that motion, Mr. Jenkins sought permission to add allegations
against DCFS, mainly that it failed to establish paternity prior to obtaining a
judgment of child support against him for Mark, Jr. Mr. Jenkins also filed a
“Motion for Order to Calculate the Probability of Paternity.” He claimed that he
obtained permission from the juvenile court to allow the use of the DNA report
for Mr. Scott and requested that the DNA information be used in the instant
matter.

o

On June 23, 2015, Ms. Jackson filed a supervisory writ with this Court, seeking
review of the trial court’s February 4, 201 [5] judgments. Ms. Jackson alleged that rj
4

Case 2:18-cv-03122-BWA-JVM Document 58 Filed 11/27/18 Page

d oi

xo

,11V trial court erred when it overruled her exception of prescription and found Mr.
the
Jenkins not to be the legal father of Mark, Jr. She argued that Mr. Jenkins cause
of action was prescribed under La. R.S. 9:392 and 9:406.7 Ms Jackson fimher
alleged that the trial court erred in ordering her to reimburse Mi. Jenkins lor c
costs incurred in obtaining the genetic testing. In opposition to the wn
application. Mr. Jenkins contended the prior writ disposition did not pret fude his
claim to rebut the presumption of legal paternity created by signing : at'. .r. s
birth certificate because there was no evidence of an authentic act o
acknow ledgem ent
In Jenkins v. Jackson. 15-399 (La. App. 5 Cir. 6/23.15) (unpublished wm
disposition), urn denied. 15-1622 (La. 9/4/15); 177 So.3d 709.' Ms Jackson s
writ application was granted in part and denied in part. This Court found -hat Mi
Jenkins had judicially confessed, in more than one pleading, that he signed both
the birth certificate and an acknowledgement of paternity at the time ot Mark.
Jr.'s birth in 1997, and that Mr. Jenkins' confession constituted full prooi against
him. Consequently, this Court found that Mr. Jenkins' subsequent allegations that
he could not remember signing any acknowledgement or that no authentic act of
acknowledgement existed could not be considered for purposes of pursuing
another attempt to revoke or rebut his acknowledgement of legal paternity in this
bet.
matter. Thus. Mr. Jenkins' cause of action was again Sound to be presen was
pursuant to La. R.S. 9:406. The trial court's ruling concerning prescription
reversed, and Ms. Jackson's exception was sustained as to Mr. Jenkins claim to
revoke or rebut his acknowledgement of legal paternity. 1 his Court further found
no error in the portions of the trial court's judgment that found Mr. Jenkins was
not the father of Mark, Jr., based upon the paternity test report, and ordered Ms.
Jackson to reimburse Mr. Jenkins for the costs incurred tn obtaining the genetic
testing and court costs; however, the order for Ms. Jackson to pay Mr. Jenkins
attorney's fees was vacated

On October 7, 2015, Mr. Jenkins filed a “Motion to Dismiss the Allegations
against DCFS Contained in the Third Amendment to the Petition and Motion to
Rebut Finding of Judicial Confession to Signing ‘An Acknowledgment other
Than the Birth Certificate.” In the motion. Mr. Jenkins alleged that Ms. Jackson
and DCFS judicially confessed in the juvenile court proceeding that there was no
authentic act of acknowledgement, and the June 23rd writ disposition irom this
Court was not the law of the case. He sought to dismiss his allegations against
DCFS in his third amendment to his petition and sought admission ot the judicial
confessions of DCFS and Ms. Jackson into evidence for the purposes of rebutting
this Court’s legal paternity finding. The motion was heard before the trial court
on October 16. 2015. In a judgment rendered on February L 20lb, the motion
was denied.

rv

Subsequently, in the same proceeding. Mr. Jenkins filed a "Petition for
Nullification 1) Request Nullification of Fifth Circuit’s Ruling for Lack ol
Jurisdiction'and for Fraud and Hl-Practicc in the Writ Application. 21 Request a.

5

5
6

^ase z:ia-cv-uiSiZ2-8WA-JVIVi Document 58 Filed 11/27/18 Page 6 of 13

Finding that R.S. 9:406(B)(2) is Unconstitutional, and 3) Request an Injunction/^
against Enforcement of the Rulings” on March 10, 20) 6. Among his numerous
allegations, Mr. Jenkins alleged that the rulings of this Court in the prior writ
dispositions regarding the existence of an authentic act of acknowledgement and
legal paternity were null because this Court lacked the subject matter jurisdiction
to consider the legal paternity of Mark, Jr. He further alleged that Ms, Jackson’s
attorney obtained the rulings in her favor through fraud and ill practices because
she misrepresented the law by claiming that the signing of the birth certificate
made him the legal father of Mark. Jr. and by failing to enter the judicial
confession of Ms. Jackson from the juvenile court that there was no authentic act
of acknowledgement. He maintained that enforcement of the rulings obtained
through fraud and ill practices would be unconscionable and inequitable because
injustice was brought about by depriving him of notice and the right to be heard.
Mr. Jenkins also alleged that La. R.S. 9:406(B)(2) was unconstitutional because it
did not provide for a suspension of the two-year prescriptive period to revoke an
authentic act of acknowledgement obtained by fraud.
On April 5, 2016, Ms. Jackson filed an “Exception of Ho Cause of Action, Res
Judicata, and for Sanctions.” Ms. Jackson argued that Mr. Jenkins’ petition for
nullification did not state a cause of action upon which relief could be granted.
She claimed that Mr. Jenkins’ grounds for nullifying the rulings were baseless;
thus, she requested that the action be dismissed. She also argued that Mr.
Jenkins’ action sought to re-litigate issues that were already considered by this
Court and the supreme court. As a result of the repeated litigation of the same
issues and the personal attack upon her attorney, Ms. Jackson requested sanctions
against Mr. Jenkins. The exception was heard before the trial court on May 16,
2016, On May 24, 2016, the trial court sustained the exceptions of no cause of
action and res judicata and denied the request for sanctions.9 The instant appeal
followed.

On appeal, Mr. Jenkins alleges the trial court erred in sustaining the peremptory
exceptions of no cause of action and res judicata, which resulted in the dismissal
of his action. He argues that the litigation has focused entirely on whether the
two-year prescripti ve period of La. R.S. 9:406 applied to an act executed in 1997,
not whether there had actually been an authentic act of acknowledgement
executed by him.

n

Mr. Jenkins alleges the trial court erred in sustaining Ms. Jackson’s exception of
no cause of action. He claims that his petition for nullification is authorized by
La. C.C.P. art. 2006 and is not simply another request for review of this Court’s
previous rulings, Mr. Jenkins avers that the grounds for nullity raised in his
petition are mainly based upon lack of subject matter jurisdict ion over the issue of
6

i

rs

Case 2:18-cv-03122~BWA-3VM Document 58 Filed 11/27/18 Page 7 of 13

legal paternity and deprivation of the right to be heard through having an ,
opportunity to present evidence. When taking the allegations of the petition as
true, Mr. Jenkins claims that his petition stated valid causes of action.
Mr. Jenkins alleges that he signed an acknowledgement of paternity m his petition for
revocation.
1

In his ruling, the domestic commissioner found that Mr. Jenkins right
revoke the.
acknowledgement could not prescribe pursuant to the version of La. R S. 9. .06 in effect at <nc
time of the'signing of the acknowledgement. In 2007, La. R.S. 9-.406(B) prov ided.
At any time, a person who executed an authentic act of acknowledgment may
petition the court to rescind such acknowledgment only upon proof, by clear an
convincing evidence, that such act was induced by fraud, duress, material mistake ol
fact or error, or that the person is not the biological parent of the child.
The mal judge made a handwritten notation that the parties "dispensed with lthe
determination of Mr. Jenkins’ right] in light of [the] hearing held."
This was the second request to amend Mr. Jenkins’ petition. In the first amendment the
Department of Children and family Sendees thereinafter referred to as "DC Fh t was added
to the action as an indispensable party.
Mr. Jenkins' reference is to the Louisiana Department of Health.
Mr. Jenkins obtained Mr. Scott’s DNA report from another, unrelated matter in the juvenile
court.
disavowal action
Ms Jackson also argued that Mr. Jenkins should have actually filed a
)9<.
not
an
action
to
revoke
an
acknowledgement,
because
he filiated
pursuant to La. C.C. art.
Isom.
However,
she
maintained
that
was
himself to Mark, Jr. by marrying her after Mark, Jr.
action would have also been prescribed.

,

On writ of certiorari to the supreme court, Justice Hughes dissented, stating.
[T)he seemingly untimely review and intervention of the Court ot Appeal to decide
an issue not addressed in the trial court’s judgment, based on the concept oi a
“judicial confession.” is clearly wrong given the DNA evidence, the multiple
pleadings and amendments thereto, the stipulation oi the parties, and the inability oi
DCFS to produce an authentic act of acknowledgment. This is not justice but judicial
“gotcha." These matters arc best left to the trial court for trial on die merits and
development of a full record.
The continued efforts of DCFS given the DNA results tn the record are also
questionable.
(Emphasis in original).
»

The initial judgment signed by the mat court did not contain the required decretal language
required to render the judgment final because st faded to indicate the specific relict granted.
See Morraz-Blantion v Outrun. 16-112 (La App 5 Crr. 8/2d 16): 199 So 3d 1220. !2j.1 As
such, after the appeal was lodged, we issued an order instructing the trial court to amend the
judgment to include die necessary decretal language The trial eomt signed an amended

judgment on November 7. 2016 to include decretal language that dismissed Mr Jenkins' JC/

7

('.io-cv-Uvji^^-BWA-JVM Document 58 Filed 11/27/18 Page 8 of 13

petition with prejudice. (See generally, Rousseau v. Emp'rs Mui. of Wausau, 493 So.2d 121,
124 (La. App. 5th Cir. 1986), where this Court held that a judgment sustaining an exception
of no cause of action is a final, appealable judgment, even in cases where only a portion of the
case is dismissed by the exception.) The amended judgment corrected the deficiency in the
judgment. Accordingly, we find that a final judgment has been rendered and is reviewable on
appeal.

/O-

Jenkins v. Jackson, 216 So. 3d 1082, 1084-89 (La. App.), writ denied, 224 So. 3d 984 (La.
2017).
In its opinion regarding Jenkins5 appeal of the dismissal of his nullity action, the
Louisiana court of appeal for the fifth circuit held that it had subject-matter jurisdiction to enter
the rulings regarding paternity in the July 31, 2015 order pertaining to Jacksons’ writ
application.14 Id. at 1089-90. The court explained;
Mr. Jenkins alleges this Court lacked the subject matter jurisdiction to determine
his legal paternity of Mark, Jr. when reviewing Ms. Jackson’s supervisory writ
applications. As a result, he contends that the writ dispositions rendered by this
Court are null and void.

r\

The nullity of a final judgment may be demanded for vices of either form or
substance. La. C.C.P. art. 2001. A final judgment shall be annulled if it is
rendered by a court which does not have jurisdiction over the subject matter of the
suit. La. C.C.P. art. 2002(A)(3). Except as otherwise provided in La. C.C.P. art.
2003, an action to annul a judgment on the grounds for vices of form may be
brought at any time. La. C.C.P. art. 2002(B).
The jurisdiction of a court over the subject matter of an action or proceeding
cannot be conferred by consent of the parties. Canal/Claiborne, Ltd. v.
Stonehedge Dev., LLC, 14-664 (La. 12/9/14); 156 So.3d 627, 632, citing La.
C.C.P. art. 3. Thus, a judgment rendered by a court with no jurisdiction over the
subject matter of the action or proceeding is void. Id.
According to La. Const, art. V, § 10, except as otherwise provided by the
constitution, a court of appeal has appellate jurisdiction of all civil matters
appealed, including matters from family and juvenile courts, and supervisory
jurisdiction over cases which arise within its circuit. A district court has original
jurisdiction over all civil and criminal matters, with the exception of the excluded
cases listed in the constitution. La. Const, art. V, § 16.

n

14 The Louisiana court of appeal for the fifth circuit mistakenly referred to the order os having been issued | I
on June 23.2015, when it was actually entered on July 31,2015. See R. Doc. 36-1 at 21 -24.
**

8

Case 2:18-cv-03122-BWA-JVM Document 58 Filed 11/27/18 Page 9 of 13

D

In the instant matter, this Court reviewed supervisory writ applications arising ^
from Mr. Jenkins’ petition for revocation of acknowledgement of patenuty, which' a~'was properly filed in the 24th judicial District Court.10 The district court had the
jurisdiction to determine both the legal and biological paternity of Mark. Jr. in its
review of Mr. Jenkins' petition to revoke. Because the 24,!l Judicial District Court
is a district court within our circuit, this Court had die supervisory jurisdiction to
render determinations relevant to Mr. Jenkins’ petition, which included the legal
and biological paternity of Mark, Jr. As such, despite his assertion that this Court
lacked subject matter jurisdiction, Mr. Jenkins’ legal paternity of Mark. Jr. was
properly before this Court for review in the two supervisory writ applications at
issue."
Mr. Jenkins' contention that this Court had no subject matter junsdiction to
determine his legal paternity of Mark, Jr. lacks merit beyond a doubt because no
set of facts could have been proven in support of his claim. Thus, there is no
relief that could be granted to Mr. Jenkins, and the claim should have been
dismissed. See Guidry (v. Hanover Ins. Co., 09-220 (La. App. 5 Cir. 11/20/09):
28 So.3d 426, 428]. Accordingly, we find that the trial court properly sustained
Ms. Jackson’s exception of no cause of action on the claim of lack of subject
matter jurisdiction raised in Mr. Jenkins' petition for nullification.
10

The Juvenile Court of JctTerson Parish would not have been the proper venue to tile such a
petition. (See State v. James, 99-1670 (La. App. 4 Cir. 2/23/00); 757 So.2d 81!, K!3, where
the court held, “There is no authority tn Ch.C. an 311 or any other article of the Children's
Code for the filing of a petition to nullify an acknowledgment of paiemitv in J mem it
Court....")

11

We note that both Mr. Jenkins and Ms. Jackson were given the fair opportunity to argue their
positions in their respective briefs, as no oral arguments were heard for Ms Jackson's
supervisory writ applications. This Court considered the arguments presented by both panics

n

Jenkins v. Jackson, 216 So. 3d at 1089-90.
On March 22, 2018, Jenkins filed this action in federal court again arguing that the
Louisiana court of appeal for the fifth circuit lacked subject-matter jurisdiction to determine legal
paternity in its July 31, 2015 order regarding Jackson's writ application." Jenkins names as
defendants: O’Rourke, an assistant district attorney involved in the state-court litigation;10
Murphy, a judge on the Louisiana court of appeal for the fifth circuit:17 Trcadaway, Jackson's
attorney in the state-court litigation;18 and Burmastcr. a judge on the 24th Judicial District Court.

r\

n R. Doc. 1 at 1-3.
16 Id. at 4.
17Id. m3.
,SR. Doc. 4 at 1-2.
9

case 2:18-cv-03122-BWA-JVM Document 58 Filed 11/27/18 Page 10 of 13

r\

Parish of Jefferson, State of Louisiana.19

Jenkins alleges that the defendants conspired t

r'

deprive him of his rights secured by the Fifth and Fourteenth Amendments to the Constitution of
die United States of America by procuring the July 31, 2015 order from the Louisiana court of
appeal when that court allegedly lacked subject-matter jurisdiction to rule on the issue of
paternity.20 Jenkins asserts that his claims are brought under 42 U.S.C. §§ 1893, 1985, 1986,
and 1988, and that he seeks a judgment that the July 31, 2015 ruling of the state court is null and
void for lack of subject-matter jurisdiction, and monetary damages.21
II.

PENDING MOTIONS
Burmaster, Treadway and O’Rourke filed motions to dismiss arguing that this Court

lacks subject-matter jurisdiction over Jenkins’ action by operation of the Rookei-Feldman
doctrine.22 The defendants argue that Jenkins is a “state-court loser” who filed this action in
federal court to collaterally attack a state-court judgment. Jenkins argues that his claims are not
barred by the Rooker-Feldman doctrine because the state-court judgment he attacks, the July 31,
2015 order issued by the Louisiana court of appeal for the fifth circuit, is void for lack of subjectmatter jurisdiction.
III.

LAW & ANALYSIS
Rule 12(b)(1) of the Federal Rules of Civil Procedure permits “a party to challenge the

subject matter jurisdiction of the district court to hear a case.” Ramming v. United States, 281
F,3d 158, 161 (5th Cir. 2001); see also Fed. R. Civ. P. 12(b)(1). “Lack of subject matter
jurisdiction may be found in any one of three instances: (1) the complaint alone; (2) the
complaint supplemented by undisputed facts evidenced in the record; or (3) the complaint

,A

19 Id. at 1.
20 R. Docs. 1 & 4.
21 R Doc. 1 at 3 & 17-19; R. Doc. 4 at 3-5.
R. Docs. 15, 19 Sc 24. Murphy also filed a motion to dismiss but did not raise the Rooker-Feldman
doctrine. See R. Doc. 23. However, this Court's finding that it lacks subject-mailer jurisdiction pursuant to the
Rooker-Feldman doctrine also applies to Jenkins’ claims against Murphy.

10

13

Case 2:18-cv-03122-BWA-JVM Document 58 Filed 11/27/18 Page 11 of 13

supplemented by undisputed facts plus the court's resolution of disputed facts,

A3*

Id. I he party

asserting jurisdiction bears the burden of proof that jurisdiction does in fact exist. Id.
Pursuant to the Rooker-Feldman doctrine, “federal district courts, as courts ol original
jurisdiction, lack appellate jurisdiction to review, modify, or nullify final orders ol state courts."
Weekly v. Morrow, 204 F.3d 613, 615 (5th C'ir. 2000) (quoting Liedtke v. State Bar of Tex., 18
F.3d 315,317 (5th Cir. 1994)); see also Rookerv. Fidelity Trust Co.. 263 U.S. 413 (1923); Dist.
of Colum. Ct. of App. v. Feldman, 460 U.S. 462 (1983). The Rooker-Feldman doctrine bars
“cases brought by state-court losers complaining of injuries caused by state-court judgments
rendered before the district court proceedings commenced and inviting district court review and
rejection of those judgments.1’ Exxon Mobil Corp. v. Saudi Basic Indus. Corp , 544 U.S. 280,
284 (2005). The four elements of the Rooker-Feldman doctrine are: (!) a state-court loser: (2)
alleging harm caused by a state-court judgment: (3) that was rendered before the district court

A

proceeding began; and (4) the federal suit requests review and reversal of the state court
judgment. Id.
Further, “(a) state court judgment is attacked for purposes of Rooker-Feldman ‘when the
{federal) claims are “inextricably intertwined" with a challenged state court judgment.’ or where
the losing party in a state court action seeks ‘what in substance would be appellate review of the
state judgment.’" Weaver

Tex. Capital Bank. N.A.. 660 F.3d 900, 904 (5th Cir. 201!) {per

curiam) (alteration in original) (citations omitted).

However, the Rooker-Feldman doctrine

“does not preclude federal jurisdiction over an ‘independent claim,' even ‘one that denies a legal
conclusion that a state court has reached. " Id. (quoting Exxon Mobil. 544 U.S. at 293). The
doctrine “generally applies only where a plaintiff seeks relief that directly attacks the validity of
an existing state court judgment." Id. “Nonetheless, a party cannot escape Rooker-Feldman by

n

‘casting ... a complaint in the form of a civil rights action.’" Houston v. Queen. 606 F. App’x

w-

1!

case 2:18-cv-03122-BWA-JVM Document 58 Filed 11/27/18 Page 12 of 13

n

A3-

725, 730 (5th Cir, 2015) (quoting Liedtke, 18 F.3d at 317), When constitutional questions arise

in state-court proceedings, federal appellate review is available only in the United States
Supreme Court. Moore v. Whitman, 2018 WL 3602774, at *2 (5th Cir. July 26, 2018) (citing
Exxon Mobil, 544 U.S. at 284).
All four elements of the Rooker-Feidman doctrine are satisfied in this case. Jenkins lost
in the state court. He alleges injuries caused by that judgment, which was rendered before he
filed this action, and he specifically asks this Court to reverse that judgment.
In an attempt to escape the applicability of the Rooker-Feidman doctrine, Jenkins argues
that the “void ab initio exception” to the doctrine applies, contending that the July 31,2015 order
that he attacks is void for lack of subject-matter jurisdiction,

Whether the Fifth Circuit

recognizes the “void ab initio exception” to the Rooker-Feidman doctrine is debatable. In
Matter of Cleveland Imaging & Surgical Hasp., L.l.C, 690 Fed. App’x 283 (5th Cir. 2017), the
court stated that it “has neither endorsed nor rejected the ab initio exception” and noted that its
“sister circuits are split on the issue.” Id. at 286 (citations omitted). The court declined to “reach
this issue” because it was clear that the state court had jurisdiction to enter the order at issue. Id.
Three months later, in Burciaga v. Deutsche Bank Natl Trust, 871 F.3d 380, 385-86 (5th Cir.
2017), the court cited the void ab initio exception as an alternate reason that the Rooker-Feidman
doctrine was inapplicable, without discussing whether the Fifth Circuit now accepts the
exception.
In this case, because it is clear that the July 31, 2015 order Jenkins questions is not void
for lack of subject-matter jurisdiction, it is not necessary now for this Court to deduce the Fifth
Circuit’s current position on the void ab initio exception. Indeed, Jenkins filed a motion in the
24th Judicial District Court pursuant to Louisiana Code of Civil Procedure article 2002 seeking

r*)

an order declaring the July 31, 2015 order null and void for lack of subject-matter jurisdiction.

16
12

Case 2:18-cv-03122-BWA-JVM Document 58 Filed 11/27/18 Page 13 of 13

Jenkins, 216 So. 3d at 1087-88. The trial court sustained Jackson’s exception of no cause of
action, and Jenkins appealed. Id. at 1088. On appeal, the Louisiana court of appeal held that it
did have subject-matter jurisdiction to render the July 31, 2015 order. Id. at 1090. Jenkins filed
a writ of certiorari with the Louisiana Supreme Court challenging that ruling, and that court
denied writs. Jenkins v. Jackson, 224 So. 3d 984 (La. 2017). Thus, Jenkins has fully litigated in
the state courts the issue of whether the judgment he now seeks to overturn was void ab initio.
The Louisiana state courts have held that it was not. In the lawsuit pending before this Court,
Jenkins asks this Court to function as a super-appellate court and reverse the decisions of the
Louisiana state courts. This is precisely the type of action that is barred by the Rooker-Feldman
doctrine. As such, this Court lacks subject-matter jurisdiction over Jenkins’ suit.
IV.

CONCLUSION
Accordingly, IT IS ORDERED that Burmaster’s motion to dismiss (R. Doc. 15) is

GRANTED, and Jenkins’ claims against him are DISMISSED WITH PREJUDICE;
IT IS FURTHER ORDERED that Treadaway’s motion to dismiss (R. Doc. 19) is
GRANTED, and Jenkins’ claims against her are DISMISSED WITH PREJUDICE;
IT IS FURTHER ORDERED that Murphy’s motion to dismiss (R. Doc. 23) is
GRANTED, and Jenkins’ claims against him are DISMISSED WITH PREJUDICE; and
IT IS FURTHER ORDERED that O’Rourke’s motion to dismiss (R. Doc. 24) is
GRANTED, and Jenkins’ claims against him are DISMISSED WITH PREJUDICE,

New Orleans, Louisiana, this 27th day of November 2018.

BARRY W. ASHE
UNITED STATES DISTRICT JUDGE
13

/6

J

I.

SEE SEALED APPENDICES IN
SUPPLEMETAL APPENDIX

17

i

SEE SEALED APPENDICES IN
SUPPLEMETAL APPENDIX

1

\

24th JUDICIAL DIST

RICT court for the parish of JJPpJv0N

,:"

STATE OF LOUISIANA

aO

a

NO. 7i 1-419
MARK ANTHONY JENKINS SR.
VERSUS
LATASHA JACKSON
IS3

JUDGMENT.

IfD

eo

to Show Cause why: I) the DNA 1 est
The Exception of Prescription and Rules
; 2) plaintiff should not be found not to be
Report should not be admitted into evidence;
birth certificate should not be altered to
the father of Mark Anthony Jenkins Jr.; 3) the
father; 4) defendant should not reimburse costs incurred to
remove defendant’s name as
d Family Services should not be ordered
prove paternity; 5) the Department of Child an
sties to calculate the probability of paternity; and DN A
to authorize DNA Diagno
Diagnostics should no. be appointed by the court to do so; came on for hearing on

fct!

Q
LU
CD
<

5

0
o
6
v\ (y

January 21, 2015.
PRESENT- Cecelia Farace Abadic, attorney for/ and Mark Anthony Jenkins;
PRESEN. ■ C«*ha r
attomey for/ ^ utaste to
Deprutment of Child and Family Services was served w.th
notice but did not attend.
ment of counsel, the Court,
After reviewing the pleadings and hearing the argu

$

cSfeidering the law, evidence, and testimony of the witness;

o
1

and for the reasons this

day orally assigned,
AND DECREED that the Exception of
IT IS ORDERED, ADJUDGED
filed herein by the plaintiff, LATASHA JACKSON, be and the same is
Prescription

' ft

hereby denied.
rr IS FURTHER ORDEREi^-OJUDGED, AND DECREED Iha, the DNA Test
Report on the parties is admitted into evidence.

IT IS FURTHER ORDERED, ADJUDGED

, and DECREED that the DNA Test

Report on the parties is admitted into evidence.
, ADJUDGED, AND DECREED that MARK
IT IS FURTHER ORDERED
is not the father of Mark Anthony Jenkins Jr.
ANTHONY JENKINS SR; ADJUDGED, AND DECREED thatLATASHA
IT IS FURTHER ORDERED
MARK ANTHONY JENKINS SR. the total costs
JACKSON TUCHSON reimburse
DNA Test, including attorney fees, test and court costs.
incurred to obtain the

€

E>3

Case No:711-419. 24th Civil pfSST

IT IS FURTHER ORDERED that the rule to show cause why the birth certificate
cause
should not be altered to remove defendant’s name as father; and the rule to show
why DCFS should not authorize DNA Diagnostics to calculate the probability of
paternity of Samuel Scott using a DNA Test Report in the Juvenile Court record ; and
why DNA Diagnostics should not be ordered to perform the calculation, are taken
under advisement.
IT IS FURTHER ORDERED that a full accounting for attorney’s fees and costs to
in

5
c-a
CQ
LU

obtain the DNA test be filed within 30 days; and any memorandum on the issue of use
of the DNA Report of Samuel Scott be submitted within 15 days.

u_

Q
LU

43
<

JUDGMENT RENDERED AND SIGNED at Gretna, Louisiana, this
cry

of y

§

■£>.4

/

,2015.

o
DGE

7-1 4^

day

>

4

i

SEE SEALED APPENDICES IN
SUPPLEMETAL APPENDIX

■ n

SJ

BS
M ARK ANTHONY JENKINS, SR.

NO. 15-CA-293

VERSUS

FIFTH CIRCUIT

LATASHA JACKSON

COURT OF APPEAL
STATE OF LOUISIANA

ORDER
f

Considering the Motion to Dismiss an Interlocutory Appeal filed by
appellant Mark Anthony Jenkins. Sr. on May 11.2015, this Court finds as
follows:
La. C.C.P. art. 1915(B)(1) provides, in pertinent part: “When a court
renders a partial judgment... as to one or more but less than all of the
claims, demands, issues, or theories against a party ... the judgment shall not
/

’ constitute a final judgment unless it is designated as a final judgment by the
court after an express determination that there is no just reason for delay.’'
Subsection (B)(2) provides, in pertinent part: “In the absence of such a
determination and designation, any order or decision which adjudicates
fewer than all claims ... shall not constitute a final judgment for the purpose
of an immediate appeal.”
In this case, there are still outstanding claims alleged in Mr. Jenkins
petition, including the claim for paternity fraud under La. C.C. art. 2315, the
■V

merits of which have yet to^h-? adjudicated by the court.

M

There is no

designation of the February 4, 2015 judgment as a final judgment pursuant

r

/

X

merits of which have yet to be adjudicated by the court,

There is mo

designation of the February 4, 2015 judgment as a final judgment pursuant
to La. C C P an. 19!5fB)(l>. Therefore.
IT IS ORDERED, ADJUDGED AND DECREED that this, appeal
is dismissed, without prejudice. Appellant is granted thirty (30) days to tile

an appropriate writ application seeking review of the interlocutory rulings
contained in the February 4, 2015 judgment.
Gretna, Louisiana this o) (c

day of May, 2015.

FOR THE COURT:

JUDGE ROBERT A. CHA1SSON

JUDGE ROBERT^MURPHY
/

JUDGE HANSTrWtJEBERG

A TRUE COPY
ORETNA

-'3$:

a

26 :

3&

OwW

CO-JK r C 1 -CY

\

SEE SEALED APPENDICES IN
SUPPLEMETAL APPENDIX

AH’

Application For Writs

No. 15-C-399
COURT OF APPEAL, FIFTH CIRCUIT
V

>

VJ

STATE OF LOUISIANA

ft

C3

t/5

o •t:

fs

id

fe-

CO

CO

-n<V

O

JUNE 23, 2015

CO

\v\

LU

O
<

MARK ANTHONY JENKINS, SR.
VERSUS
LATASHA JACKSON

i
• '1
v“5

o
:

Si

■<

o

l

1

Deputy Clerk

IN RE LATASHA JACKSON
APPLYING FOR SUPERVISORY WRIT FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT, PARISH OF
JEFFERSON, STATE OF LOUISIANA, DIRECTED TO THE HONORABLE RAYMOND S. STEIB, JR., DIVISION "A",
NUMBER 71 M19
Attorneys for Relator:
Kristyl R, Treadaway
Sandra S. Salley
Laurel A. Salley
Dixon C, Brown
Attorneys at Law

3445 North Causeway Boulevard
Suite 510
Metairie, LA 70002
(504) 837-5499

WRIT GRANTED IN PART AND DENIED IN PART
(SEE ATTACHED DISPOSITION)
Gretna, Louisiana, this

day of

,2015.
/

Attorneys for Respondent:
Timothy P. O'Rourke
Assistant District Attorney
,1546 Gretna Boulevard
Harvey, LA 70058
(504) 364-3630
Cecelia F. Abadie
t

i

its

MARK ANTHONY JENKINS, SR.

NO. 15-C-399

VERSUS

FIFTH CIRCUIT

LATASHA JACKSON

COURT OF APPEAL

07

STATE OF LOUISIANA

WRIT GRANTED IN PART AND DENIED IN PART
ti*i

rxi
CO
O
UD

ZD

Q
LU

O
<

On February 15, 2012, respondent, M.J., Sr., filed a petition for revocation
of acknowledgment of paternity, wherein he also asserted claims for damages due
to fraud under La. C.C. art. 2315, for restoration of payments not due under La.
C.C. art. 2299, and for genetic testing of relator, L.J., and her minor child, M.J., Jr.
As an initial matter, we note that on May 14, 2013 this Court ruled on a prior
writ application filed by relator seeking review of the trial court’s January 22, 2013
denial of her exception of prescription, wherein she claimed that respondent’s
claim to revoke his acknowledgment of paternity was prescribed. M.J., Sr. v. L.J.,
13-C-296 (La. App. 5 Cir. 5/14/13) (unpublished writ disposition). In that writ
disposition, this Court applied the two-year prescriptive period of La. R.S. 9:406
regarding authentic acts of acknowledgment, and held that “[respondent’s] cause of
action to revoke his acknowledgment of paternity has prescribed.” Id at 2. Asa
result, this Court granted relator’s writ application in part, thereby granting
relator’s exception of prescripton as to respondent’s claim for revocation of his
acknowledgment of paternity,3 Id.
In light of this Court’s finding that respondent’s cause of action for
revocation was prescribed under La. R.S. 9:406, this Court vacated the portion of
the trial court’s judgment that ordered relator to submit to genetic testing under La.
R.S. 9:406, and remanded the matter to the trial court to determine whether
respondent was entitled to an order of genetic testing under any other law, namely
La. R.S. 9:396.4 Id. at 3. On June 26, 2013, the trial court ordered respondent,
relator, and MX, Jr. to submit to genetic testing in accordance with La. R.S. 9:396.
In the instant writ application, relator seeks review of the trial court’s
February 4, 2015 judgment, which denied relator’s second exception of
prescription, found that respondent, M.J., Sr., was not the father of M.J., Jr., and
ordered relator to reimburse respondent for costs incurred to obtain the genetic
3 Respondent filed an application for rehearing as to this Court’s May 14,2013 mling, which was demotion June 26.

~ V

testing, attorney's fees, and court costs. Relator
ds *at
in denying her second exception of prescription, j e °^ °v
kn0’vledgment
whprein she again claimed that respondent s claim to revoke ms a
&

.-.i» •—“i™ r“,ht

trial court erred in ordering her to reimburse respondent tor costs me
obtaining the DNA test, attorney’s fees, and court costs.

CO
CD

uz

o

LLl
O
<
'VmMW

In ooDosition to this writ application, respondent notes that this Court■ s May
14 2013 writ disposition granted relator’s first exception of prescription under La.
R S^9 406 which involves authentic acts of acknowledgement of paternity.
Resnondent now contends that there is no evidence of an authentic act of
acknowledgment, but rather, the birth certificate is the only evidence °{^ hacknow eugme
^^
A$ suchi respondent claims that this
C^ prlrwrit disposition does not preclude his claim to rebut the presumption
of legal paternity created by signing the birth certificate, which he contends
imprescriptible under former Article 203 of the Louisiana Civil Code.
Our review of the evidence regarding the form of the acknowledgment in
this case shows that in respondent's February 15, 2012 pehtion,j ]r.
opposition ,o

p,„h oooi r,..it
JL Louisiana.

«.

alleged thaf according to the Bureau of Vital Records a copy of the
acknowledgement was unavailable due to Hurricane Katrina,

s:.“
K S£S «V.. ss- n« » gto Calculate Probability of Paternity” and supporting memorandum on Octob
2014, wherein he alleged as follows:
Except for the birth certificate, [respondent] could not• remc™be' ‘f^
signed any other acknowledgment at the hospital in 1997. Finally on
September 15, 2014, the Department of Child
formerly the Department of Social Services, repo
® .
Burmaster that it could not find any acknowledgment of paternity,
authentic or otherwise in its records. DCFS receives hospi
acknowledgments after they are executed since 1997 when die
hospital acknowledgment program was begun. That fact a g
the fact that hospital acknowledgments were not by authentic act m
the
^.scoPered afer the appea, ;o the Flfth Circuit on the issue
1997 was
of prescription of the right to revoke an authentic act was over.
Wmmmhpr 20 2014. relator filed an

M

exception of prescription claiming

On November 20, 2014, relator filed an exception of prescription claiming
that respondent’s claim to revoke his acknowledgment of paternity was prescribed.
In opposition to relator’s exception, respondent alleged that since filing his origin
petition for revocation of acknowledgment of paternity, he “learned that there was
never a notarial act or an authentic act of acknowledgment - only a signed birth
certificate.”
A declaration that expressly acknowledges an adverse fact and is made by a
party in a judicial proceeding is a judicial con fession that constitutes full proo
against the party who made it. La Louisiane Bakery Co. v. Lafayette Ins. Co., 09825 (La App 5 Cir 2/8/11), 61 So.3d 17, 26. An admission m a pleading tails *
2
Case No.711-419, 24th Civil pg:32

within the scope of a judicial confession and is full proof against the party making
it. Id. at 27. A judicial confession must be explicit and not merely implied. Id. In
the instant case, we find that respondent judicially confessed in more than one
pleading that he signed both the birth certificate and an acknowledgment of
paternity at the time of Mi., Jr.’s birth in 1997. Therefore, we find that
respondent’s confession constitutes full proof against him, such that his subsequent
allegations suggesting that he could not remember signing any acknowledgment
other than the birth certificate, or that neither a notarial, nor an authentic act of
acknowledgment exists, cannot be considered for purposes of pursuing another
attempt to revoke or to rebut his acknowledgment of legal paternity in this case.
s
«
^
«c

Q

LU

o

<

*"”

Moreover, we note that our May 14, 2013 writ disposition held that
“[respondent’s] cause of action to revoke his acknowledgment of paternity has
prescribed.” M.J., Sr., 13-C-296 at 2. Respondent neither contested the form of
his acknowledgment at the time that wnt application was considered by this Court,
nor did he file a timely writ of review to the Louisiana Supreme Court regarding
that decision. Accordingly, we find that respondent cannot circumvent this Court s
prior ruling regarding the prescriptive period applicable to his acknowledgment of
paternity by filing a rule to show cause in the trial court, which attempts to re­
characterize the nature of that acknowledgement in a manner contrary to
respondent’s judicial confession made at the time of our prior writ disposition.
Therefore, we find that the trial court erred in denying relator’s exception of
prescription because we have already held that respondent’s cause of action to
revoke his acknowledgment of legal paternity has prescribed. Accordingly, we
reverse the ruling of the trial court and grant relator’s exception of prescription as
to respondent’s claim to revoke or rebut his acknowledgment of legal paternity.
Relator also contends that the trial court erred in finding that respondent was
j

i

*

1

.

*

i

. -

.

. .. J -*

Z'* -

- - -*“•

Relator also contends that the trial court erred in finding that respondent was
not the father of M J., Jr., and ordering her to reimburse respondent for costs
incurred in obtaining genetic testing, attorney’s fees, and court costs, as set forth in
its February 4, 2015 judgment.
Our review shows that on June 26, 2013, the trial court ordered relator,
respondent, arid M.J., Jr. to submit to genetic testing in accordance with La. R.S
9:396, which authorizes an order for genetic testing in any civil action in which
paternity is a relevant fact. Although we have found that respondent’s claim to
revoke or rebut his acknowledgment of legal paternity has prescribed, respondent
has also asserted additional claims related to the issue of biological paternity that
have not yet been resolved; specifically his claims for damages due to fraud under
La. C.C. art. 2315, and for restoration of payments not due under La. C.C. art2299. Therefore, we find no error in the portion of the trial court’s February 4,
2015 judgment that admitted the DNA test report into evidence and found that
respondent is not the father of M.J., Jr. based upon that report. This finding is
consistent with the trial court’s June 26, 2013 order for genetic testing under La.
R.S. 9:396, as the issue of biological paternity may, or may not, relate to
respondent’s additional claims that have not vet been determined.
Moreover, we find no error in the portion of the trial court’s February 4,
2015 judgment that ordered relator to reimburse respondent for costs incurred in
obtaining genetic testing, and for court costs. La. R.S. 9:397.3 provides that the
court "shall tax the costs to the party against whom judgment is rendered.”
However, we find that the trial court erred in ordering relator to pay respondent’s
attorney’s fees. “Louisiana courts have long held that attorney's fees are not
allowed except where authorized by statute or contract.” Sher v. Lafayette Ins.
Co,, 07-2441 (La. 4/8/08), 988 So^2d 186, 20L In this case, there is no statute o.
contract authorizing respondent’s recovery of attorney’s fees. Although
re spondent claims that La. R.S. 9:398.1 allows for the recovery of attorney’s fees,
...disagree as that statute only authorizes attorney’s fees where “the court renders
we
a judgment In favor of a party seeking to establish paternity.’' (Emphasis added).
Because respondent is not seeking to establish paternity in this case, we find that
this statute is not applicable. Accordingly, we find that the trial court erred in
awarding attorney’s fees in favor of respondent and against relator, and we vacate
that portion of the trial court’s February 4, 2014 judgment.

V

I

-crrrm"vaui&'uvOJFiusy

a i©Bo x« -wvoniif ibspuiiuem ana against relSlor, ana wc vacate

that portion of the trial court’s February 4, 2014 judgment.

to
CO

o
cs>
<E

o
111

o

<

In conclusion, we grant this writ application in part and reverse the trial
court’s February 4, 2015 denial of relator’s exception of prescription, thereby
granting relator’s exception of prescription and dismissing with prejudice
respondent’s claim to revoke or rebut his acknowledgment of legal paternity of
M.J,, Jr. We further grant this writ application in part and vacate the portion of the
trial court’s February 4, 2015 judgment that ordered relator to pay respondent’s
attorney’s fees. The writ application is denied in all other respects; therefore, the
portion of the trial court’s February 4, 2015 judgment ordering relator to reimburse
respondent for costs incurred for the genetic testing and for court costs remains in
effect.
Gretna, Louisiana, this

/J

'

day of

,2015.

JUDGE ROMRT M. MURPIjy/
JUDGE STEPHEN J. WINDHORST
JUDGE

J. LILJEBERG

A TRUE COPY
GRETNA

JUL 3 1 2015

30

V -r'V

e>*
24th JUDICIAL DISTRICT COURT FOR THE PARISH OF JEFFERSON
STATE OF LOUISIANA
NO

DIVISION:

711-419

MARK ANTHONY JENKINS, SR-

FIL]

VERSUS

FEB 0 1

LATASHA JACKSON

4

DEPUTY’ CLERK

FILED
JUDGMENT

This matter came before the Court on the 26th da> of October. 2015, on the Motion RyPiig?
3 Re!

the Allegati

Finding of Judicial Confession fro Signing ‘‘An Ackno\vledRm^r_Qther-IMi3-.tbc &ttth Certfijc
filed by Mark Anthony Jenkins, Sr. on October 7, 2015
PARTIES’

Mark Anthony Jenkins, Sr.
Represented by Cecelia Abadie, La Bar No 19874
And
Lotasha Tuckson
Represented by Kristyl R Trcadawny, La Bor No 32648

THE COURT, based on the pleadings, law, evidence, and argument provided by couns
renders Judgment as follows
IT IS ORDERED ADJUDGED AND DECREED that die Motion to.Dismiss die Allegatjo
p

Against DCFS Contained in the
Judicial Confession, to Signing “An Acknowlcdgmcnf’ QlhcrJ]

djbfiMAM

.20

d 31

XT—' *

m

24°’ JUDICIAL DISTRICT COURT FOR THE PARISH OF JEFFERSON
STATE OF LOUISIANA
711-419

DIVISION: A
MARK ANTHONY JENKINS, SR.
-fi

VERSUS
■p'

'C?

&

LATASHA JACKSON
FILED

DEPUTY CLERK
JUDGMENT

IM
(Vy.

Cause of Action. Res Judicata, and for Sanctions filed by Latasha Tuckson on April 5,2016.

<

Mark Anthony Jenkins, Sr.
Represented by Cecelia Abadie, La. Bar No. 19874
And
Latasha Tuckson
Represented by Kristyl R. Treadaway, La. Bar No. 32648

THE COURT, based on the pleadings, law, evidence, and argument provided by counsel,
renders Judgment as follows:
IT IS ORDERED ADJUDGED AND DECREED that the Exception of No Cause of
Action and the Exception of Res Judicata are granted.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that the Request for
Sanctions is denied.
*0

T“>

<r>
a

p:

<2

Tills matter came before the Court on the 16th day of May, 2016, on the Excention'of N

PARTIES:

P

CP

0\0
MARK ANTHONY JENKINS, SR.

NO. 16-CA-482
*2 M

VERSUS

111

FIFTH CIRCUIT

2

LATASHA JACKSON

i

COURT OF APPEAL

>?0 &RX

STATE OF LOUISIANA

?•-

“711-^ A

c

-sH

ORDER

CD

Q
UJ

a
<

|sr2
3.S
frJCS

Sfo Ia

£

Plaintiff, Mark Anthony Jenkins, Sr., appeals the trial court’s May
24, 2016 judgment, sustaining the peremptory exceptions of res judicata

\

?

and no cause of action filed by Defendant, Latasha Jackson. After review,
we find that this judgment is deficient because it lacks the requisite
decretal language. The judgment indicates that Defendant’s exceptions
were “granted,” but the specific relief granted, e.g., dismissal of the
petition, cannot be determined from the judgment itself.
This Court cannot reach the merits of an appeal unless our
jurisdiction has been properly invoked by a valid final judgment.
Input/Output Marine Sys. v. Wilson Greatbatch Techs. Inc., 10-477 (La.
App. 5 Cir. 10/29/10); 52 So.3d 909, 915. A valid, final judgment must
contain the appropriate decretal language. See, La. C.C.P. art. 1918. The
judgment must name the party in favor of whom the ruling is ordered, the
party against whom the ruling is ordered, and the specific relief that is
granted or denied. Morraz-Blandon v. Voiron, 16-112 (La. App. 5 Cir.
8/25/16); — So.3d

2016 La. App. LEXIS 1594; Claiborne Medical

33-

B/o
pleadings or reasons for judgment. Id.\ Babin v. State Farm Mutual Auto
Inc. Co.t 11-192 (La. App. 5 Cir. 9/27/11); 76 So.3d 100, 102.
Because the trial court has not issued a valid, final judgment in this
matter, we find that this Court lacks appellate jurisdiction. Nevertheless,
we invoke our supervisory jurisdiction and order the trial court to amend
the May 24,2016 judgment. Accordingly,
IT IS ORDERED that the trial court amend the May 24, 2016
judgment to include the appropriate and necessary decretal language
within fifteen (15) days of this order.
IT IS FURTHER ORDERED that the Clerk of Court for the 24lh
Judicial District Court supplement the appellate record with the amended
judgment within ten (10) days of the signing of the amended judgment.

Gretna, Louisiana this I

day of

, 2016.

FOR THE COURT:

JUDGE MARC E/JOHNSON
^2

JUDGE ROBERT M.

*HY

JUDGE STEPHEN J. WINDHORST

M

-

“ 24™ JUDICIAL DIS TRICT CO URT FOR TIIE PARISH OF JEFFERSON

G

STATE OF LOUISIANA
NO.

DIVISION “A”

711-419
MARK ANTHONY JENKINS, SR.

3=*
GO

m
o

3lf‘

VERSUS

FILED

LAT ASHA JACKSON

MOV 0 7 2016

'tfO
OEP«^Y CLERK

3S
O
-C

AMENDED JUDGMENT

o
•O

Pursuant to the November I, 2016 Order of the Fifth Circuit, the Court hereby amends its

<£>
OF?

Judgment of May 24, 2016, to read:
This matter came before the Court on the 16th day of May, 2016, on the Exceptions of No
Cause of Action, Res Judicata, and for Sanctions filed by Latasha Tuckson on April 5, 2016.
Parties:

Mark Anthony Jenkins Sr.
Represented by Cecelia Abadie, La, Bar No. 19874
And
Latasha Tuckson
Represented by Kristyl R, Treadaway, La. Bar No. 32648

The Court, based on the pleadings, law, evidence, and arguments of counsel, renders
judgment as follows:
IT IS ORDERED, ADJUDGED, AND DECREED that there he judgment in favor of
Latasha Tuckson and against Mark Anthony Jenkins, Sr., granting the Exception of No Cause of
Action and the Exception of Res Judicata.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the Request for
Sanctions is denied.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the Petition for
Nullification filed by Mark Anthony Jenkins, Sr. on March 10, 2016, is hereby dismissed with
prejudice.
SIGNED this 7th day of November, 2016 at Gretna, Louisiana.

c
JUDGE

G

°<6*4 3%

o

OND S. Slljl, JR.

-A

Case: 19-30112

IN

Document: 00515319261

Page, x

UeUt! rneu.

—

THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-30112

MARK ANTHONY JENKINS,
Plaintiff - Appellant
v.
TIMOTHY*
the
BARRON BURMASTER, Judge,
Defendants - Appellees

Appeal from the United States District Court
for the Eastern District of Louisiana
ON PETITION FOR. REHEARING EN BANC
(Opinion 1/10/2020, 6 Cir.,

F.3d

)

Before DENNIS, GRAVES, and WILLETT, Circuit Judges.
PER CURIAM:
Treating the Petition for Rehearing En Banc as a Petition for Panel
(
£hS the Petition for Panel Rehearing is DENIED^
the panel nor judge in regular active service of the court having
requested that the court be polled on Rehearing En Banc (FED.R-A* •
— cm. R. 3B), the Petition for Rehearing En Banc ts DENIED. fife

Case: 19-30112

Document; uubiwiy^oi

rage; ^

LJcilt: mcu. utrcx/cvi-v

S'

ai
( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (FED. R. APP. P. and 5th ClR. R.
35), the Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
STATES CIRCUIT JUDGE

* Judge Kurt D. Engelhardt, did not participate in the consideration of the rehearing
en banc.

M

Case 2:18-cv-03122-BWA-JVM Document 70 Filed 01/15/19 Page 1 of 3

y

n

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

MARK ANTHONY JENKINS

CIVIL ACTION

VERSUS

NO. 18-3122

ROBERT M. MURPHY, et al

SECTION: M (1}

ORDER & REASONS
Before the Court is a motion for new trial filed by plaintiff Mark Anthony Jenkins
(“Jenkins”),1 to which defendants Robert Murphy (“Murphy”), Barron Burmaster (“Burmaster”)
and Rristyl Treadway (“Treadway”) respond in opposition,2 and in support of which Jenkins
replies.3 Having considered the parties’ memoranda and the applicable law, the Court issues this

n

Order & Reasons.
L

BACKGROUND
This action is a collateral attack on a state court judgment. The pertinent facts and

procedural history of this case were fully recited in this Court’s November 27, 2018 Order &
Reasons granting the defendants’ motions to dismiss,4 and wit! not be restated herein.
Jenkins argues that this Court should reconsider its November 27, 2018 Order & Reasons
in which it found that Jenkins’ claims are barred by the Rooker-Feldman doctrine and dismissed
his suit for lack of subject-matter jurisdiction.5 Jenkins argues that this Court failed to consider
his contention that the Louisiana court of appeal for the fifth circuit lacked jurisdiction to render
its July 31, 2015 ruling on paternity, thereby making its decision void ah initio and not subject to

n-

'R. Doc.61.
2 R. Docs. 62, 65 & 66.
2 R. Doc. 69.
4 R. Doc. 58.
% Id. at 13.

M

vaac 4.XO-UV- u^-lzz-bwa-jvm

r\

Document 70 Filed 01/15/19 Page 2 of 3

,C0~.
the Rooker-Feldman doctrine.6 The defendants oppose Jenkins’ motion for new trial arguing that
he has not raised any manifest errors of law or fact or presented new evidence that would warrant
granting a new trial.7
II.

LAW & ANALYSIS
A Rule 59(e) motion calls into question the correctness of a judgment. In re Transtexas

Gas Corp., 303 F.3d 571, 581 (5th Cir. 2002). “Rule 59(e) is properly invoked to correct
manifest errors of law or fact or to present newly discovered evidence.” Id. “A Rule 59(e)
motion should not be used to relitigate prior matters that should have been urged earlier or that
simply have been resolved to the movant’s dissatisfaction.” In re Self, 172 F. Supp. 2d 813, 816
(W.D. La. 2001). The grant of such a motion is an “extraordinary remedy that should be used
sparingly.” Indep. Coca-Cola Employees’ Union of Lake Charles, No. 1060 v. Coca-Cola
Bottling Co. United, Inc., 114 F. App’x 137, 143 (5th Cir. 2004) (citation omitted).
Jenkins seeks to relitage a matter that was previously urged in his opposition to the
motions to dismiss and that was resolved to his dissatisfaction. In ruling on the motions to
dismiss, this Court considered whether the Louisiana court of appeal’s July 31, 2015 ruling on
paternity was void ab initio, and found that it was not.8 Jenkins’ motion for reconsideration
points to no manifest error of law or fact or newly discovered evidence as would alter this
conclusion.
m.

CONCLUSION
Accordingly, IT IS ORDERED that Jenkins’ motion for new trial (R. Doc. 61) is

DENIED.

m

6 R. Doc. 61-2.
7 R. Docs. 62.65 & 66.
8R. Doc. 58 at 12-13.
2

^ase 2:18- cv-03122-BWA-JVM Document 70 Fifed 01/15/19 Page 3 of 3

tSL
New Orleans, Louisiana, this 14th day of January 2019.

P
BARRY W( ASHE
UNITED STATES DISTRICT JUDGE

HOi.
3

?

i.rtWwy.

SUSAN M. CHEHARDY

CLERK OF COURT

CHI EF JUDGE

MARYE. LEGNON Q3

rREDERICKA H. 'WICKER'
JUDE G. GRAVOIS
MARC E. JOHNSON
ROBERT A. CHAISSON
ROBERT M. MURPHY
STEPHEN J. WINDHORST
HANS J. UUEBERG

CHIEF DEPUTY CLERK

FIFTH CIRCUIT
101 DERBIGNY STREET (70053)
POST OFFICE BOX 489

JUDGES

CHERYL Q. LANDRIEU

GRETNA, LOUISIANA 70054
www.fifthcircuit.org

SUSAN BUCHHOLZ
FIRST DEPUTY CLERK
MELISSA C. LEDET
DIRECTOR OF CENTRAL STAFF
(504) 376-1400
(504) 376-1498 FAX

September 02, 2015
F-NOTIFIED
There were nc emails sent to attcmey(s).

MAILED
CECELIA F. ABADIE
ATTORNEY AT LAW
20 WHITE DRIVE
HAMMOND, LA 70401

•n

KRISTYL R. TREADAWAY
SANDRA S. SALLEY
LAUREL A. SALLEY
DIXON C. BROWN,
ATTORNEYS AT LAW
3445 NORTH CAUSEWAY BOULEVARD
SUITE 510
METAIRIE, LA 70002

TIMOTHY P. O'ROURKE
ASSISTANT DISTRICT ATTORNEY
JUVENILE COURTJ U V EN1LE COURT
1546 GRETNA BOULEVARD
HARVEY, LA 70058

DEAR SIR/MADAM:
REHEARING WAS THIS DAY DENIED IN THE CASE ENTITLED:
MARK ANTHONY JENKINS, SR.
VERSUS
LATASHA JACKSON
15-C-399
NO:
Jr; -

RMM
SJW
HJL

\

CHERYL Q. LANDRIEU
CLERK OF COURT

t)l>

>

t

Siafe a( M

.-7

flutstati

S)

V. <'

X'

“■

2015“^%

■7

MASK ANTHONY JENKINS, SR.

KC.O,
%

VS.

*

/

LATASHA JACKSON

V

b

V

District Court Div. A, No. 711-419; to the Court of Appeal,
Circuit, No. 15-C-399;

September 4, 2015

54

Stay denied. Writ denied.
JTK

CM

CO

JLW
o

GGG

O

MRC

yy

O

SJC

<

HUGHES, J.,

dissents and would grant for assigned reasons.

mmm
wrw

Supreme Court of Louisiana
September 4,2015

QM)\0
Second Deputy

Clerk of Court
For the Court

supreme court of 'Louisiana

m.
-'Garmeri B^dong
0?
Deputy-Clerk of Cpu'/jf^..
-77/
»

* i _

j

7

<5

9
C.H
SUPREME COURT OF LOUISIANA

2015-CJ-1622
MARK ANTHONY JENKINS, SR.

SEP 0.4 2015

VS.
LATASHA JACKSON

ON WRIT CERTIORARI TO THE COURT OF APPEAL,
FIFTH CIRCUIT} PARISH OF JEFFERSON

Hughes, J., dissents and would grant the writ.
ur>
c=>
CO
T-f

Respectfully, the seemingly untimely review and intervention of the Court of
Appeal to decide an issue not addressed in the trial court's judgment, based on the

C_)

o

a

concept of a “judicial confession,” is clearly wrong given the DNA evidence, the

a

multiple pleadings and amendments thereto, the stipulation of the parties, and the

in

<

«K*

inability of DCFS to produce an authentic act of acknowledgment. This is not
justice but judicial “gotcha.” These matters are best left to the trial court for trial on
the merits and development of a full record.
The continued efforts of DCFS given the DNA results in the record are also
questionable.

’^fr

MARK ANTHONY JENKINS, SR.

NO. 16-CA-482

VERSUS

FIFTH CIRCUIT

LATASHA JACKSON

COURT OF APPEAL

as

STATE OF LOUISIANA

March 22, 2017
Susan Buchholz
First Deputy Clerk

ON APPLICATION FOR REHEARING
Panel composed of Marc E. Johnson,
Robert M. Murphy, and Stephen J. Windhorst

REHEARING DENIED
MEJ
RMM
SJW

^e^uprmc fflourf of

of flowsrana
NO.

MARK ANTHONY JENKINS , SR-

2017-C-0652

VS.

LATASHA JACKSON

For Writ of
IN RE: Mark Anthony JeMin^ ^ if Jefferson,
24th Judicial
Fifth
Certiorari and/or Review,
71x^19; to the Court of.Appeal,
District court Div. A, no.
Circuit, No. 16-CA-482,

September 6, 2017

Denied.
GGG
BJJ
JLW
MRC
SJC
JTC

HUGHES, J-,

would grant.

f*s*r?

Suarem f Courtyo
S^ptotber/o, m

Louies yai

1^0

V

2
owrti
Deputy Clerk or
For the Co^rt
t|:

Document 82 Filed 03/02/20 Page x

Case 2:18-cv-03122-BWA-JVM

ot

^

D1

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals

n

Fifth Circuit

FILED
No. 19-30112

January 10, 2020
Lyle W. Cayce
Clerk

D.C. Docket No. 2:18-CV-3122

MARK ANTHONY JENKINS,
Plaintiff - Appellant
v.

D

TIMOTHY O'ROURKE Jeffersonof
Jefferson Parish^rcTrcui^Court of Appeal; KRISTYL TREADAWAY;
the Louisiana
BARRON BURMASTER, Judge,
Defendants - Appellees
Appeal from the United States District Court for the
Eastern District of Louisiana
Before DENNIS, GRAVES, and WILLETT, Circuit Judges.
JUDGMENT
This cause was con
It is
affirmed.

sidered on the record on appeal and the briefs on file,

ordered and adjudged that the judgment of the District Court is

Case 2:18-cv-03122-B\A/A-JVM Document 82 Filed 03/02/20 Page 2 of 2

IT IS FURTHER ORDERED that Appellant pay to Appellees the costs
on appeal to be taxed by the Clerk of this Court.
0

Certified as a true copy and issued
as the mandate on Mar 02, 2020
Attest:

dwlt W. O&mLa

Clerk, U.S. Court of Appeals, Fifth Circuit

.m

5

t

o

/
/
/

/

Et

GINAL

FIFTH CIRCUIT COURT OF APPEAL
STATE OF LOUISIANA

DOCKET NO. 15-C-399
(CIVIL)

CC '
i

■ c
* i

lug
mark ANTHONY

JENKINS SR.

VERSUS
LATASHA JACKSON

&

Hi-u

J t:->.

APPLICATION FOR REHEARING IN CONNECTION WITH THE
DECISION OF THE FIFTH

CIRCUIT COURT OF APPEAL

NO. 15-C-399

granting a writ m part from the ruling of the
24* JUDICIAL DISTRICT COURT,
THE HONORABLE RAYMOND STEIB PRESIDING,
DIVISION “A”; DOCKET NUMBER 711-419
PLAINTIFF MARK ANTHONY JENKINS SR.

Cecelia Farace Abadie #19874
Attorney for Mark Anthony Jenkins Sr.

20 White Drive

Hammond, Louisiana 70401
Phone & Fax 985*542-7859

* /.-•

/V^

mNTTCNTIQMS TN APPLJnATTON FOR REHEARING

£I

1. This court's decision, which stands solely on mischaracterization
of statements as “judicial confessions” to signing an

authentic act of

acknowledgment, will unjustly prevent plaintiff from obtaining
reimbursement of child support he paid due to being defrauded.
2. The parties never placed the fact of the signing of an authentic
act in issue in District Court, and the evidence in that record is
inadequate to support a finding that Jenkins signed an authentic act
of acknowledgment.
3. This Court had no right to consider de novo whether there was a
signed authentic
the

act because that issue was not within the scope of

writ application from the District Court’s February 4, 2015

Judgment.
4. The issue of whether Jenkins signed an authentic act was
dis

posed of in Juvenile Court before this decision was rendered

was no
when the defendants judicially confessed that there
authentic act of acknowledgment.
5. Taking up the legal paternity issue, which is outside the scope of
the writ application from the District Court, and the way it was
done, pose a threat to the judicial system.

SUPREME COURT

ep

11

BE3
Rl

STATE OF LOUISIANA

CJ 1621

DOCKET NO. 2015-C-3 99
(CIVIL)

MARK ANTHONY JENKINS SR.
VERSUS
LATASHA JACKSON

FIFTH CIRCUIT COURT OF APPEAL
NO. 15-C-399

24lh JUDICIAL DISTRICT COURT,
DIVISION “A”; DOCKET NUMBER 711-419

APPLICATION FOR WRIT OF CERTIORARI
Cecelia Farace Abadie #19874
Attorney for Mark Anthony Jenkins Sr.
20 White Drive
Hammond, Louisiana 70403
Phone & Fax 985-542-7859

SO

iO
Set

S’

ft §
d C.

a.

l

/JJ O

o§£»u'

<v.

e

CO

<v
c-3

..i
<CC

/-

INDEX
WRIT APPLICATION FILING SHEET
WRIT CONSIDERATIONS

..1A
2

STATEMENT OF THE CASE

3-7

ASSIGNMENT OF ERRORS....

7-8

SUMMARY OF ARGUMENT

8-9

ARGUMENT

9-16

AFFIDAVIT OF VERIFICATION AND SERVICE

17

APPENDIX
TRIAL COURT’S JUDGMENT ..

18-19

OPINION OF FIFTH CIRCUIT ON APPLICATION FOR WRIT 20-23
REHEARING: was requested timely but “dismissed with prejudice” in
the Court indicates applicant may not be
opinion of
therefore this application is
entitled to a rehearing and
before the 5th
being filed in an abundance of caution
Circuit has ruled on request for rehearing.
WRIT GRANT CONSIDERATIONS
1.

The Fifth Circuit’s writ disposition of July 31, 2015 contains
two rulings on issues not contained in the February 4, 2015
District Court Judgment from which the writ application was
taken. Consideration of those issues violates the Court’s own Order
of May 26, 2015, which set the scope of review. They also conflict
Supreme Court decisions on de novo consideration and the Fifth

2

.S t

judicial confession to one, that would allow the Fifth Circuit to determine
by a preponderance of the evidence that there was an authentic act of
acknowledgment of paternity of Jackson’s child.
3.

The Fifth Circuit had no right to consider de novo whether

there was a signed authentic act because that issue was not within the
scope of the writ application from the District Court’s February 4, 2015
Judgment.
4.

The issue of whether Jenkins signed an authentic act of

acknowledgment had already been disposed of in Juvenile Court before the
Fifth Circuit ruled to the contrary on that issue.
5.

Deciding the issue of legal paternity after defendants’ baseless

and dishonest request for a continuance, which was only needed to stop
Juvenile Court from deciding the issue, was a departure so far from proper
judicial proceedings as to call for the exercise of the Supreme Court’s
supervisory authority, especially because that issue was not in the scope of
review.
6.

The Court of Appeals exceeded its power in dismissing with

prejudice plaintiffs claim for relief from its erroneous finding of a judicial
confession to signing an authentic act of acknowledgment.
SUMMARY OF ARGUMENT

63 *
12

Circuit’s decision on judicial confessions. If those rulings are not
reversed, they will cause material injustice to plaintiff by
preventing him from obtaining repayment of child support he paid
due to fraud in a contract, and thereby reward those responsible
for the fraud.
2.

The Fifth Circuit characterized statements as judicial
confessions to signing an authentic act of acknowledgment, when
the jurisprudence shows the statements fail every requirement for
judicial confessions. That ruling in law could be considered the law
of the case and make the Supreme Court the only avenue for
plaintiff to obtain justice. Land v. Vidrine,LEXIS 600, 62 So.3d 36,
(La. 2011) Also, the ruling on judicial confessions came after the
Department of Children and Family Services and defendant
Jackson confessed in Juvenile Court that there was no authentic
act of acknowledgment.

3. The Fifth Circuit was able to make those rulings on the existence
of an authentic act of acknowledgment and on legal paternity
through a departure so far from proper judicial proceedings and by
abuse of its authority as to call for the exercise of this Court’s
supervisory authority.

BX
3

24™ JUDICIAL DISTRICT COURT FOR THE PARISH OF JEFFERSON g j
%
STATE OF LOUISIANA
Div. “A”

NO. 711-419

MARK ANTHONY JENKINS SR
VERSUS
LATASHA JACKSON

FILED

DEPUTY CLERK

~o
>

-n

2
re

oC2
-o
/ _ c:
m.

m

ap

-n

—
o

o

flj-.'t'ojv Cor a/u//,
<0 Sptks
,1 REQUESTNULUF!CATI0IiQEf!EniCiE£l!ESRiiUIifi^2SJ4S'’KG~~
o

.

^
TT reiSDICTION.AND-JEQR

r

AHD11X-PRACli£ETNimE-Vffi

APPLICATIOJiOJREGy^
■^TIT! iTioNAL.AmilMaUESl^^

R,S^9j406BLLliS

ENFORCEMENT OF THE.RULINGS
9

>

r>n

3
31

3>

30

es>

1^——

43.

This court has authority under La. C.C.P

. Art. 2006 to annul a judgment rendered

by the Court of Appeal.
44.

The rulings on legal paternity and the existence of an authentic act of
acknowledgment in the Writ Disposition oflttiy 31,2015 are null for lack of subject
matter jurisdiction to rule on legal paternity and to decide de novo the factuai issue which^
determined legal paternity.

COURT OF APPEAL FOR THE FIFTH CIRCUIT
■i ■

£ ■¥

STATE OF LOUISIANA
i

faSIA

DOCKET N0.16-CA-482

MARK ANTHONY JENKINS, SR., PLAINTIFF & APPELLANT
VERSUS
LATASHA JACKSON, DEFENDANT & APPELLEE

PLAINTIFF/APPELLANT’S REQUEST FOR RECONSIDERATION
FROM GRANTING OF EXCEPTIONS & DISMISSAL OF PETITION
IN 24™ JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON, STATE OF LOUISIANA
THE HONORABLE RAYMOND S. STEIB PRESIDING
DIVISION “A” DOCKET NUMBER 711-419

RESPECTFULLY SUBMITTED,
Cecelia Farace Abadie (19874)
ATTORNEY FOR PLAINTIFF/APPELLANT
MARK ANTHONY JENKINS
20 White Drive
Hammond, Louisiana 70401
Telephone & Facsimile: 985-542-7859

i*

MAY IT PLEASE THE COURT:

bh

1. The Disposition handed down on January 22. 2017 totally ignored, and failed
to address, consider or decide the issue, presented in this appeal, of whether
this court denied plaintiff his civil right to be heard.
Plaintiffs appeal argued that by improperly taking up the legal
paternity issue that was not in the scope of review of the February 4, 2015
Judgment, this court denied Mark Jenkins his civil right to have material
evidence before the court deciding legal paternity.
C.C.P. Art 2002A.(2) provides: “A final judgment shall be annulled if it
is rendered against a defendant who has not been served with process as
required by law and has not waived objection to jurisdiction....” When this
court improperly took up the legal paternity issue and ruled “de novo” on
whether there was a signed authentic act of acknowledgment, which it
discretely called an “acknowledgment of legal paternity,” it “fail(ed) to give
the litigants notice of its sua sponte determination or to provide the
litigants with an opportunity to be heard on the issue.” Wooley v.
Lucksinger, LEXIS 1863, 14 So.3d 311, 364 (La. 2008). Fair notice to the
plaintiff in the instant case, in which the defendant lied in her Assignment of
Issues, had to be implemented by this court by confining its review to the
issues contained in the Judgment of February 4, 2015. Respondent was
blindsided, and notice to the Court in the Opposition Brief and in the Request
for Reconsideration was ignored. As alleged in the Petition, denial of the
/

€6

C6

SUPREME COURT
STATE OF LOUISIANA

pi
DOCKET NO.

MARK ANTHONY JENKINS, SR, PLAINTIFF & APPELLANT
VERSUS
LATASHA JACKSON, DEFENDANT & APPELLEE

APPLICATION FOR WRIT OF CERTIORARI IN CONNECTION WITH THE
i

DISPOSITION OF THE FIFTH CIRCUIT COURT OF APPEAL
AFFIRMING THE GRANTING OF EXCEPTIONS OF NO CAUSE
OF ACTION, RES JUDICATA AND DISMISSAL OF PLAINTIFF’S
PETITION FOR NULLIFICATION
IN 24th JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON, STATE OF LOUISIANA
THE HONORABLE RAYMOND S. STEIB PRESIDING
DIVISION “A” DOCKET NUMBER 711-419

RESPECTFULLY SUBMITTED,
Cecelia Farace Abadie (19874)
ATTORNEY FOR PLAINTIFF/APPELLANT
MARK ANTHONY JENKINS SR.
20 White Drive, Hammond, Louisiana 70401
Telephone & Facsimile: 985-542-7859

•• 151
K-

INDEX

Writ Application Sheet

i

Index

11

Table of Authorities

lll-IV

Statement of Considerations

1-2

Statement of the Case

,2-7

Assignment of Errors............................ .......... . -........ .................................

7

Summary of the Argument...........................................................................

,7-9

Argument on Assignment of Error I: errors in history and facts.................. .....

9-10

Assignment pf Error II: cause of action: lack of jurisdiction.........

10-13

Assignment of Error HI: cause of action: denial of right to be heard

13-15

Finality of Judgment....... ...................................... ..................

15

Assignment of Error IV: exception of res judicata................. .

15-16

Appendix
Amended Judgment of the 24th Judicial District Court
Judgment and Opinion of the Fifth Circuit Court of Appeal
Denial of Request for Rehearing
Minute Entry -Judgment of Juvenile Court, April 27,2015

y

STATEMENT OF CONSIDERATIONS
It is undeniable that for a Court of Appeals to decide an issue that had not
been ruled on by the trial court violates the jurisdictional limit on supervisory
jurisdiction, and the ruling made without jurisdiction is invalid. It is also
undeniable that when such an unlawful review by writ pi’events the respondent
from having his evidence in the court record before the court of appeal, the
respondent is denied the Constitutional right to be heard, and the rulings are
invalid. These are the causes of action for nullification of two rulings in the
Disposition of July 31, 2015.
Trickery to deny justice in this case began on June 23, 2015 when
defendants Department of child and Family Services and Latasha Jackson, whom
it assisted in obtaining child support, stopped Juvenile Court from deciding legal
paternity by asking for a continuance. The parties had already stipulated in
Juvenile Court on April 27, 2015 that there was no authentic act of
acknowledgment. Knowing that meant Juvenile Court was going to decree
Jenkins was not the legal father, the defendants wanted the rulings on legal
paternity to come from a court where the stipulation was not in the record. The
Fifth Circuit used the opportunity provided by the continuance, and Jackson’s lie
in her Writ Application that the district court had ruled that Jenkins was not the
legal father, to rule on the legal paternity issue. It cherry- picked imprecise
statements about signing “an acknowledgment” and ignored clear statements that

1

es
Reconsideration on March 9, 2017, and the Request was denied on March 22,
2017.
ASSIGNMENT OF ERRORS
The 2017 Disposition erred in its history and facts of the case by

I.

repeating the same

factual and legal errors that were used to confuse the content

of the Writ Disposition

of 2013 with the content of the February 4, 2015 Judgment

of District Court.
II.

The

court of appeal did not review the issue of whether the Petition

for Nullification stated a cause

of action to nullify rulings in the Deposition of July

31, 2015 for lack of supervisory subject matter jurisdiction to rule on issues not
decided in trial court an

d not contained in Judgment of February 4, 2015. Instead

issue.
the Deposition substituted a non-issue for the real jurisdictional i
III.

The court of appeal totally ignored the issue of whether the Petition

for Nullification stated a cause of action to nullify rulings in the Disposition of
February 4, 2015 for denial of plaintiff- appellant’s right to be heard.
IV.

The Disposition of July 31, 2015’s de novo ruling that Mark Jenkins

therefore the legal
admitted signing an authentic act of acknowledgment; and was
father, cannot be res judicata because they are invalid for lack of the Fifth
Circuit’s jurisdiction/authority to decide those issues, and for the court s denial of
Jenkins’ right to be heard.
SUMMARY OF THE ARGUMENT

(p o
11

/
f^r,

'X

■

- FI

24th JUDICIAL DISTRICT COURT FOR THE PARISH OF JEFFERSON

V

STATE OF LOUISIANA
NO. 711419

MARK ANTHONY JENKINS SR.
VERSUS

FILED

LATASHA JACKSON
DEPUTY CLERK
MEMORADUM IN SUPPORT OF MOTION FOR NEW TRIAL

y/lf the jurisprudence on La. R.S. 9:406 (as amended in 2008) had held that the statute could be
given retroactive effect, this court wold have to deal with the question of whether the acknowledgment
Mark Jenkins signed was notarial without witnesses or if it was by authentic act. R.S. 9:406 requires
that the acknowledgment have been by authentic act for it to apply. As far as undersigned counsel
knows that proof does not exist. Undersigned counsel filed in the court record on June 20,2012 a
statement she obtained from the Louisiana Bureau of Vital Records, which states that the
acknowledgment was lost in Katrina, There was no indication of its form on the statement.
Furthermore, La, R.S. 9:406 as amended in 2008 is in conflict with a time-honored, almost
axiomatic legal principle that a false acknowledgment can have no legal effect.

In Acts 2008, No. 533, sec.i, en. August n, zuua.
i

tV.O. y.HV/U wna icmmi.li

Gp I
ClilU WllVUivu

NO. 711-419

FILED

FX*

THE PAMSH °F PERSON
MARK ANTHONY JENKINS SR
VERSUS
LATASHA JACKSON

Div. “A"

-if \

SR.

\l\%
%

DEPUTY CLERK

AN

NOW INTO COURT undersigned coun
sel comes MARK ANTHONY
JENKINS, plaintiff in

this suit for damages for paternity fraud

, and on

suggesting that;
1.
Plaintiff learned that the D

epartment of Child and Family Services receives
copies of all executed hospital-based
acknowledgments of paternity from the
Department of Vital Records since
the hospital-based acknowledgment program
was
initiated.

l

2.

Juvenile Court ordered DCFS,

I

!

to produce their copy of the Jenkins

acknowledgment to see if it was i
m authentic form or not. It also ordered Jackson's
attorney to present a signed birth certificate. In the hea
ring on September 15, 2014,
Assistant District Attorney John Fitzmorris
stated that DCFS does not have a copy
of any act of acknowledgment of paternity sig
ned by plaintiff.

a
l
t
\

j
•j

3.

Smec there is no authentic act of acknowledgment, the Fifth Circuit's decision

FtL

that the prescriptive period of R.S.9-'406 applied to an authentic act of
acknowledgment signed in 1997, has no legal effect on this suit or the one in
Juvenile Court.
4.
Latasha Jackson’s attorney presented a signed birth certificate and Juvenile
Court ruled that the birth certificate is a legitimate acknowledgment of paternity,
which it does not have authority to revoke.
5.
This court has jurisdiction to order the removal of plaintiffs name as father of
defendant's son from the birth certificate and there is no prescriptive period to
revoke acknowledgment by signing the birth certificate.
6.

C.C. Art. 203, which was in effect in 1997, when the birth certificate was
signed, provides that acknowledgment by registry of the birth certificate

creates a

presumption of paternity" which "may be rebutted by proof that he is not the father
by physical data or evidence."
7.

The DNA Report, ordered by this court and filed in the record as required by
statute, shows that Mark Anthony Jenkins cannot be the father of Latasha Jackson'

63

However, if the court wants the exact probability of paternity, an expert must be
appointed.
13.
Both DNA reports were produced by DNA Diagnostics Center (DDC) by court
order. DDC would compute the probability of paternity using Scott’s DNA
information, which is in the public record at Juvenile Court, if DCFS gives
authorization to use the Houston-Scott report.
14.
Plaintiff served a Request for Production on DCFS on March 14, 2014
requesting that DCFS sign an enclosed authorization for DDC to use Samuel Scott's
DNA Report to calculate the probability of his paternity, and it refused.
MARK ANTHONY JENKNS moves that Jackson and the Department of Child
and Family Services show cause why- 1) the DNA Test Results for the parties
should not be admitted into evidence, and why the birth certificate should not be
denied legal effect and declared rebutted; 2) why Mark Anthony Jenkins Jr. ’s birth
certificate should not be altered to show Mark Anthony Jenkins is not his father; 3)
why Latasha Jackson should not pay all costs for the DNA testing as provided in
La. R.S. 9-371.1 by a date set by this court; 4) why the court should not order DCFS
to authorize use of the DNA information on Samuel Scott, of order DDC or another
expert to use the DNA information of Samuel Scott, which is in the public record, to
calculate the probability of paternity; and 8) why DCFS should not be ordered to

pay attorney fees and costs for this rule to compel them to authorize the calculation. F*.

Cecelia Farace Abadie, Bar #19874
Attorney for Mark Anthony Jenkins
20 Drive, Hammond, LA 70401
Phone 985-542-7859
CERTIFCATE OF SF/R.VTfTFl
I certify that a copy of this Rule to Show Cause was faxed to both opposing
counsel at 504*837*5411 and 504-364*3559 this day of October, 2014.
Please serveDepartment of Child and Family Services
Latasha Jackson
through attorney of record
Timothy O'Rourke
1546 Gretna Blvd.
Harvey, LA 70058

Kristyl R.Treadaway
3445 North Causeway Blvd.
Suite 510
Metairie, LA 70002

24^ JUDICIAL DISTRICT COURT FOR THE PARISH OF JEFFERSON
STATE OF LOUISIANA
NO:

711-419

DIVISION: A <
V
MARK ANTHONY JENKINS, SR.
VERSUS
LATASHA JACKSON

Ql
FILED:

DEPUTY CLERK
O

MEMORANDUM IN SUPPORT OF EXCEPTION OF PRESCRIPTION

ea

MAY IT PLEASE THE COURT:

Q
UJ

NOW INTO COURT, through undersigned counsel, comes Latasha Tuckson, who offers the

O

■> following Mmnrmrim in Stmteti of Exception of Prescription.
LAW AND ARGUMENT
The relief
be denied,

„ .ZT "

"“'•mu.iim.l,.,.

prescribed.
Xi^M^fl^onJsPrescrihPH
Plaintiffs request to nullify his formal
Unless otherwise

provided by legislation, a

ten years. La. C.C. Art. 3499.

acknowledgment is

prescribed and should be denied.

Personal action is subject to a liberate prescription of

The Petitio n filed on behalf of Plaintiff, attempting to
revoke his formal

acknowledgment, was filed over fourte

en years after he signed the birth
certificate of the minor child.
Plaintiff offers no authority to support that his cause
of action has a liberative prescription for
than ten years. Because Plaintiff offers no

tl
o

”
o
re

more

authority to support the timing of his claim, Louisiana Civil
Code Article 3499 applies, making his cause of actio
n subject to a liberative prescription often years,
Since Plaintiff signed the birth certificate on September 19,
1997, his cause of action to revoke said
acknowledgment prescribed on September 19
, 2007, more than four years before the instant
case
Was,iled TfPfPfOfd. the Petition filed in the instant case,
and all subsequent motions are prescribed
and should be dismissed.
M&t-* ■ d jvj

✓

fit

24111 JUDICIAL DISTRICT COURT FOR THT PARISH OF JEFFERSON
STATE OF LOUISIANA
O

NO. 711-419

'

Div. “A"

MARK ANTHONY JENKINS SR
<r

VERSUS
LATASHAJACKSON
FILED
DEPUTY CLERK
MOTION TELA MEND PETITION A THIRD TIME
NOW INTO COURT through undersigned counsel comes plaintiff MARK
ANTHONY JENKINS who on suggesting that:
I.

The suspensive interlocutory appeal taken by defendant was dismissed on May 26.
2015 and so plaintiff can present this motion to the court.
2.

According to La. C.C.P Art. 1151 plaintiff MARK ANTHONY JENKINS may
amend his petition only by leave of court or by written consent of the adverse parties.
3.

The Department of Children and family Services (DCFS) was added as a defendant
in the first amendment of the petition to comply with the law and without any
allegations of wrongdoing.
4.

Since then Plaintiff has learned that DCFS violated the law of tins state by failing to
establish paternity as required before obtaining a judgment for support; and that
. ,. ffmpQP, whether intentional or in negligence, is a cause of damages incurred by (p 7
plaintiff

fH
DC! S knew or should have known when Jackson applied lor benefits that
her child was bom outside of marriage, and that the subsequent marriage would only
make plaintiff the legal father of the child if he was the biological father.
6.
TfiFDeparimem did’not offer plaintiff a paternity tcsfto establish liimYs the
biological father, and therefore the legal father of the child by subsequent marriage.
7.

Furthermore. DOS could have asked plaintiff to execute an authentic act of
acknowledgment to establish him as the legal father with the obligation to support the
chdd} but that would have required DCFS to offer plaintiff a paternity test.
8.

The Department has refused a discovery request to produce the records on
taiasha Jackson’s consultation which might show what she told the Department about
the paternity of the child to shed light on the department’s failure to establish paternity.
9.
Hi© Department is not hampered in its defense by this amendment because
n;,.

it has been active in die hearings in the related action in Juvenile C ourt to nullify the
order for support. It has been served with discover)* requests under this lawsuit and
With all pleadrngs, judgments, memoranda, and notices in connection with proceedings
tin this court from the rime it was named defendant before the hearing for the paternity
testtook place.
10.

Plaintiff- lias already claimed damages from Laiasha Jackson based on fraud
in the contract for child support. Plaintiff’s requested third amendment would add an
alternative claim for error in the cause of that contract.

f*
WHEREFORE, piainutf nwvtj that the Court grant leave •«> fm the i hml
Amendmeni to die Petition.
Respectfully submitted.

(p.l </

Ce«ii3 faisee Ahadtc. La. Oat No W*-‘J
20 White Dnve. Hairmoik’. I A 704t)l
Phone & fax. 9S5-542-7S5*

cmsRU.Aim
I certify that the fonrpojne is inie and that thi* pitMtat »a* taved n> both opposmfc
cmtsisei or mailed oo May
f^O i $

\d
to;

2:18 -CV-G312 2-SWA -3VM Document a-16 ’SEALED
Case

*

Fifed 05/08/18 Page 3 of 5

THE PARISH OF JEFFERSON
24th JUDICIAL DISTRICT COURT for
STATE OF LOUISIANA
Div. "A

M0.71M19
mark

ANTHON Y JENKINS SR.
VERSUS

LATASHAJACKSON
DEPUTY CLERK

FILED__

The third amen

dmem and supplement to the petition of MARK A

JENKINS SR., a domiciliary of Ascension Parish

, State of Louisiana, who respectful! v

»l petition filed on the 15» cloy of l''*™*?
amends.and supplements his origi
following respects:
1.
Bv adding the following paragraphs:

,2012 in the

“34.

If Defendant Latasha Jackson was merely mistaken in representing that plaintiff vs as

F*t

the father of her child, she is liable for damages suffered by plaintiff because of her
negligence in not informing Mark Anthony Jenkins and the Department of Children and
Family Services, (DCFS) that there was a possibility that another man could be the father of
her son.
35.
Since Mark. Anthony Jenkins is not the biological father of Latasha Jackson s son, and
he signed foe contract to support because he believed the child was fos biological son; the
contract is null for error in its cause.

Case 2-.18-CV-03122-BWA-.3VM

19-30112.730

Document 4-16 ‘SEALED

*

Filed 05/08/18 Page 4 of 5

37.

ould only be the legal
that Mark Jenkins c
In 2003 DCFS knew or should have known
feecfoW-smmher,iftbechadwas
fleet of his marriage to
ther of foe child by retroactive e

fa

his biological child.
38.
ktH0MY

JENKINS a paternity test to

iocnt in not offering MARK A
DCFSwas neglige
establish paternity.
39.
individually, jointly
latasha Jackson and DCFS are
incurred by plaintiff due to

. and solidarity liable for damages

their acts of negligence.

*7O

COURT OF APPEAL

ORIGINAL

FIFTH CIRCUIT
STATE OF LOUISIANA
NO.-20t5<7*P293-

MARK ANTHON Y JENKINS, SR.

VERSUS
&
C=9
C-J

CO
H

G
CD

LATASHA JACKSON
Defendant-Applicant

o

UJ

<3

<

s

A CIVIL PROCEEDING
APPLICATION OF LATASHA JACKSON, FOR SUPERVISORY WRIT
OF REVIEW OF THE DECISION OF TWENTY-FOURTH JUDICIAL
DISTRICT COURT
JUDGE RAYMOND S. STEIB, DOCKET NUMBER 711-419, RENDERED
IN OPEN COURT ON JANUARY 21,2015,
AND SIGNED ON FEBRUARY 4,2015
APPLICATION FOR SUPERVISORY WRITS ON BEHALF OF
DEFENDANT- APPLICANT, LATASHA JACKSON

*7#

I

SEE SEALED APPENDICES IN
r

SUPPLEMETAL APPENDIX

'7/ -73

**"*
*/.

■

■

■

ASSIGNMENTS OR SPECIFICATIONS OF ERROR
The District Court erred when it overruled the Exception of Prescription

1.

filed by Latasha Tuckson and found Mark Anthony Jenkins, Sr, to not
be the legal father of the minor child.
2.

The District Court erred when it ordered that Latasha Tuckson reimburse
Mark Anthony Jenkins, Sr. all costs incurred in obtaining the DNA test,
including attorney’s fees and court costs.

argument
The District Court erred when it overruled the Exception of Prescription filed
by Latasha; And when it ordered that Latasha reimburse Mark Anthony Jenkins, Sr.
all costs incurred in obtaining the DNA test, including attorney s fees and coui i costs.
I.

The District Court erred when it overruled the Exception of Prescription
filed by Latasha Tuckson and found Mark Anthony Jenkins, Sr. to not be
the legal father of the minor child

i

3

The District Court committed manifest error when it overruled the Exception
3

J

0

of Prescription filed by Latasha Tuckson and found Mark Anthony Jenkins, Sr. to no-,
be the legal father of the minor child. The only way to revoke an acknowledgment

l
5

of paternity is to

follow the legislative requirements of La. R.S. 9:392(A)(7)(h)i

enacted in 1998, and the subsequently enacted La. R.S. 9:406(B)(1) . State v, A.Z.,
12-560 (la. App. 5 Cir. 2/21/13); HOSoJdllSO, 1153. This Court has already held

c>

f

•-V
COURT OF APPEAL
FIFTH CIRCUIT
STATE OF LOUISIANA
CO

DOCKET NO.

-U

cn

uo

cj

NO. 15 C 399

MARK ANTHONY JENKINS SR.
Plaintiff-Respondent

CD

VERSUS

U

LU

O

<c

LATASHA JACKSON
Defendant -Applicant

C11'1

2*

A CIVIL PROCEEDING

OPPOSITION TO LATASHA JACKSON’S APPLICATION FOR WRIT
OF REVIEW OF THE DECISION OF THE 24™ JUDICIAL DISTRICT CU R'
JUDGE RAYMOND S. STEIB, DOCKET NO. 711-419
RENDERED IN OPEN COURT ON JANUARY 21,2015
AND SIGNED ON FEBRUARY 4, 2015

9(p

PLAINTIFF MARK ANTHONY JENKINS SR.’S OPPOSITION TO
APPLICATION FOR SUPERVISORY WRITS

She also suggests that the court can apply law that was not in effect f'.fj
when the birth certificate was signed in 1997 and when the parties married
in 1998; but she does not explain how that can be done under the law.
4. Jackson asks this court to give legal effect to a false birth
certificate, that cannot be given legal effect under the law.
The Louisiana Supreme Court interpreted C.C. Art. 203 B (1) to
require that acknowledger had to be the biological father for the
authentic act of acknowledgment to have legal effect. The Court did not
limit its holding to authentic acts but spoke of “an acknowledgment”
which includes the birth certificate acknowledgment as well.
The validity of an acknowledgment depends on
the existence of a biological relationship. Although
the Louisiana Civil Code does not expressly preclude
an acknowledgment when no biological relationship
exists, this conclusion is self - evident and defin i tional
of an acknowledgment. .. .If the acknowledgment is
null, it produces no effects. Turner v. Busby et al, 883
So.2d 412. 414. (La. 2004).
According to the Turner, a false birth certificate acknowledgment
produces no legal effect. Jenkins’ mistaken birth certificate
acknowledgment should not be given any effect.
5. Defendant is asking this Court to decide de novo the legal father issue.
which she and DCFS have deliberately avoiding addressing in a lower

77

court.
The District Court judgment dealt only with the biological father
issue. Neither olaintiff nor defendant nresenfed anv

rp.mipcf ttiat ontoilo/t o

r

24TH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON
STATE OF LOUISIANA

MARK ANTHONY JENKINS, SR.

Pg

CASE NUMBER 711-419

VERSUS
DIVISION "A"

LATASHA JACKSON

PROCEEDINGS
MOTION HEARING
Held on Monday, May 16, 2016
Before the
HONORABLE RAYMOND S. STEIB, JR.
Judge Presiding
In Gretna, Louisiana

APPEARANCES•
CECELIA F. ABADIE, ESQUIRE
Representing Mark Anthc#*?Jenkins, Sr.
KRISTYL R. TREADAWAY, ESQUIRE

12

r

L

Your Honor, you did not decide legal paternity

1

/

You decided biological

2

in that judgment,

3

paternity.

4

decision on paternity was based on the D. N . A.

5

report.

6

And it was obvious because the

THE COURT:
Okay.

7

But what they were looking at was the

8

prescriptive period to apply for determining legal

9

paternity, if I recall correctly,

And what they

10

said is that because of the acknowledgment your

11

deadline had passed, that if you wanted to deny

12

paternity on an acknowledgment that deadline had

13

passed and that your claim had prescribed,

14

what they ruled.

IS
16

That's

MS. ABADIE:
Well, getting back to Wooley, Your Honor, in

17

Wooiey the Court was denied - was told by the

18

Supreme Court - the Court of Appeals was told by

19

the Supreme Court, "You cannot just choose an

20

issue and decide it if it was not litigated by the

21

parties."

22

there was an authentic act of acknowledgment was

23

not litigated on the record in this Court,

24

being litigated - being litigated - in the

25

Juvenile Court.

26
27

And, Your Honor, the issue of whether

It was

7%

Now, what happened, I came after Ms. Treadaway
accusing her of fraud and ill practice because

t

•i

i
2
3

It is wrong, what happened.
correct it, Your Honor,
THE COURT:

4

Ma'am, I agreed that it was wrong,
j
gave you an opportunity to appeal,
The appellate
court shot me down and said, "Nope. Sorry,
This
is what applies." And you'11 have an
opportunety
to take it back up on appeal.
I'm going to be
honest with you.

6
7
8
9

MS, ABADIE:

11
12

\

I agree with you, but the appellate
court has
disagreed.

14

MS. ABADIE:

16

Your Honor, last time I came here, you told me
you show me where I have the authority to
determine whether those minutes from Juvenile

1?
18
19

Court can be used to rebut the ruling of the
Fifth
Circuit that there was an effective act of

20
21
22

acknowledgment,
THE COURT:

23
24
25

dustice delayed is indeed justice denied.

THE COURT:

13

15

But you can

Okay,

5

10

Ft

Yes.

Okay.

But the problem is -

MS. ABADIE:

26

And I had to walk out, because, you know, Youx
Honor, I couldn't cite it to you.
But today I

27

can.

28

,

29
30

fo

THE COURT:
Okay.
MS. ABADIE:

The problem is I think you're too late.

ii

!

STATUTORY AND CONSTITUTIONAL PROVISIONS
Constitution of the United States, Amendment XTV
Section 1. All persons born or naturalized in the United States and
subject to the jurisdiction thereof, are citizens of the United States and of
the State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
Section 5. The Congress shall have power to enforce, by appropriate
legislation, the provisions of this article.
Title 42 United States Code §1983. Civil action for
deprivation of rights
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s

k

F1
judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory decree relief was
unavailable. For the purposes of this section any Act of Congress
applicable exclusively to the District of Columbia shall be considered to
be a statute of the District of Columbia.

S3

* 4*»*~
<1.»*► V

i
!

i

j
«

•
,
<
;

•

WWW*

r

•jj « ia/vcwt a ai avv

Notes of Decisions
p<?
o/8/96). 68S So.2d 567, rehearing denied, wit de­
S. Acknowledgment—In general
Allen v. Anderson, 1951, 55 So.2d 596, [main nied 9(54871 (La. 10725/96), 681 So.2d 375.
volume] decree amended on rehearing -57 So .2d 50. jq
I n form a 1 acknowl edgment
Children either horn or conceived during mar­
Allen v. Anderson, 1951, 55 So.2d 596, [main
riage enjoy legitimate filiation whereas children volume] decree amended on rehearing 57 So.2d 50.
born out of matrimony must be filiated through
legitimation, acknowledgement, or by instituting 11- ---- Form of acknowledgment
Allen v. Anderson, 1951, 55 So.2d 596, [main
proceeding to establish filiation. Succession of
volume]
decree amended on rehearing 57 So.2d 50.
Humphrey, A.pp. 2 Cir.1996. 28,298 (La.App. 2 Cir.
SECTION 2, OF THE ACKNOWLEDGMENT OF ILLEGITIMATE CHILDREN
Art. 203. Methods of making acknowledgment; legal effect
A. The acknowledgment of an illegitimate child shall be made by a declaration executed
before a notary public, in the presence of two witnesses, by the father and mother or either of
them, or it may be made in the registering of the birth or baptism of such child.
/ B. (1) An acknowledgment or declaration by notarial act is deemed to be a legal finding of x
paternity and is sufficient to establish an obligation to support an illegitimate child without
the necessity of obtaining a judgment of paternity.
(2) An acknowledgment by registry creates a presumption of paternity which may be
rebutted if the alleged father proves by a preponderance of the evidence facts which
reasonably indicate that he is not the father, provided such facts are susceptible of
independent verification or of corroboration by physical data or evidence.
Amended by Acts 1995, No. 425, § 1; Acts 1997, No. 1244, § 1.
Presumption and application
Section 2 of Acts 1997, No, 12U, ns modified pursuant to the sUdutory revision
authority of the Louisiana State Law Institute, pmvides:
uSectkm 2. Notwithstanding any provision of law to the cordvary, a minor is
considered the child of both patties to a marriage if the child has been raised during
the marriage as if he were the biological or legally adopted child of the parties, has
been dependent upon the parties for his health education, or welfare as evidenced
by the child being named as a dependent on the federal and state tax- returns of the
parties for five consecutive years, and has been classified by a branch of the Umted
States military as a dependent of either party. The promsious hereof shall apply
both prospectively and retroactively, bid shall, only apply to those children born
between July 1, 19S6 and August 1, 1986; however, no provision hereof shod, confer
upon the child the status offorced heir or serve to involuntarily terminate parental
rights."

m

i

Date effective
Section 8 of Ads 1997, No. 12U ($ 1 of which amends this article) provides:
"Section 8. The provisions of th is Act shall never take effect unless the secretary
of the United States Department- of Health and Human Sendees, Administrat ion
for Children and Families, determines that the provisions hereof are required for
compliance with the provisions of the Personal Responsibility and Work Opportu n i­
ty Reconciliation Act of 1996. "
On behalf of the Secretary of the United States Department of Health and Human
Sendees. Smote Bills 575,'578. 58L 582, 588, 581, 585, 586, 587, 5SS. 597, and 876

